<html>
<title> - THE TRANSPORTATION SECURITY ADMINISTRATION'S PROGRESS IN ENHANCING HOMELAND SECURITY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]


 
                      THE TRANSPORTATION SECURITY
                      ADMINISTRATION'S PROGRESS IN
                      ENHANCING HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON INFRASTRUCTURE
                          AND BORDER SECURITY

                                 of the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 12, 2004

                               __________

                           Serial No. 108-49

                               __________

    Printed for the use of the Select Committee on Homeland Security


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
23-890                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012005


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississippi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
W.J. (Billy) Tauzin, Louisiana       Barney Frank, Massachusetts
David Dreier, California             Jane Harman, California
Duncan Hunter, California            Benjamin L. Cardin, Maryland
Harold Rogers, Kentucky              Louise McIntosh Slaughter, New 
Sherwood Boehlert, New York          York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., North Carolina
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Ken Lucas, Kentucky
Jim Gibbons, Nevada                  James R. Langevin, Rhode Island
Kay Granger, Texas                   Kendrick B. Meek, Florida
Pete Sessions, Texas
John E. Sweeney, New York

                      John Gannon, Chief of Staff

       Stephen DeVine, Deputy Staff Director and General Counsel

           Thomas Dilenge, Chief Counsel and Policy Director

               David H. Schanzer, Democrat Staff Director

             Mark T. Magee, Democrat Deputy Staff Director

                    Michael S. Twinchek, Chief Clerk

                                 ______

           Subcommittee on Infrastructure and Border Security

                     Dave Camp, Michigan, Chairman

Kay Granger, Texas, Vice Chairwoman  Loretta Sanchez, California, 
Jennifer Dunn, Washington            Ranking Member
Don Young, Alaska                    Edward J. Markey, Massachusetts
Duncan Hunter, California            Norman D. Dicks, Washington
Lamar Smith, Texas                   Barney Frank, Massachusetts
Lincoln Diaz-Balart, Florida         Benjamin L. Cardin, Maryland
Robert W. Goodlatte, Virginia        Louise McIntosh Slaughter, New 
Ernest Istook, Oklahoma              York
John Shadegg, Arizona                Peter A. DeFazio, Oregon
Mark Souder, Indiana                 Sheila Jackson-Lee, Texas
John Sweeney, New York               Bill Pascrell, Jr., New Jersey
Christopher Cox, California, Ex      Jim Turner, Texas, Ex Officio
Officio

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Dave Camp, a Representative in Congress From the 
  State of Michigan, and Chairman, Subcommittee on Infrastructure 
  and Border Security............................................     1
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Security..............................................    31
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas, and Ranking Member, Select Committee on 
  Homeland Security..............................................     2
The Honorable Donna Christensen, a Representative in Congress 
  From the U.S. Virgin Islands...................................    39
The Honorable Peter A. DeFazio, a Representative in Congress From 
  the State of Oregon............................................    32
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................     9
The Honorable Jennifer Dunn, a Representative in Congress From 
  the State of Washington........................................    35
The Honorable Kay Granger, a Representative in Congress From the 
  State of Texas.................................................    26
The Honorable Shiela Jackson-Lee, a Representative in Congress 
  From the State of Texas, Prepared Statement....................     9
The Honorable Edward J. Markey, a Representative in Congress From 
  the State of Massachusetts.....................................     1
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of North Carolina...............................    22

                                WITNESS

Mr. Steven J. McHale, Deputy Administrator, Transportation 
  Security Administration, Department of Homeland Security
  Oral Statement.................................................    11
  Prepared Statement.............................................    14

                                APPENDIX

Questions Submitted for the Record
Responses from Mr. Steven J. McHale:
Questions Submitted from the Honorable Dave Camp.................    43
Questions Submitted from the Honorable Christopher Cox...........    45
Questions Submitted from the Honorable Lamar Smith...............    50
Questions Submitted from the Honorable Jim Turner................    51


                      THE TRANSPORTATION SECURITY
        ADMINISTRATION'S PROGRESS IN ENHANCING HOMELAND SECURITY

                              ----------                              


                        Wednesday, May 12, 2004

                          House of Representatives,
                     Subcommittee on Infrastructure
                               and Border Security,
                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:38 a.m., in 
Room 1334, Longworth House Office Building, Hon. Dave Camp 
[chairman of the subcommittee] presiding.
    Present: Representatives Camp, Granger, Cox, Dunn, DeFazio, 
Markey, Dicks, Turner, Pascrell and Christensen.
    Mr. Camp. [Presiding.] Good morning. The Subcommittee on 
Infrastructure and Border Security hearing will come to order. 
Today's hearing is on the Transportation Security 
Administration's progress in enhancing homeland security.
    The subcommittee will hear from Mr. Stephen McHale, the 
deputy administrator for Transportation Security 
Administration. Mr. McHale, we appreciate you being here in 
place of the TSA Administrator Stone, who is waiting 
confirmation by the Senate and therefore, unable to testify.
    The chair would ask members to either waive opening 
statements or to give short statements and to submit their full 
opening statements for the record. The record will remain open 
for 10 days after the close of the hearing.
    Members are advised they will receive an additional three 
minutes during the question time if they waive their opening 
statement.
    At this time, I will simply submit my statement for the 
record. And I would ask Mr. Markey, as Ms. Sanchez not is here 
today, if he has an opening statement that he would like to 
give.
    Mr. Markey. Thank you, Mr. Chairman, very much. Today, we 
focus on TSA's role in enhancing homeland security. I am going 
to focus my statement on three major flaws in the 
transportation sector's security posture.
    First, cargo security. While old ladies are still being 
forced to take their shoes off and infants have to be taken out 
of baby carriers for screening prior to boarding flights, the 
Bush Administration continues to oppose efforts to screen all 
cargo being placed on passenger aircraft, even though 
technology to do so exists.
    This is an unacceptable loophole that gives Americans a 
completely false sense of security. I have introduced 
comprehensive aviation security legislation to remedy this 
problem.
    Second, rail shipments of hazardous materials. Each day, 
hundreds of thousands of shipments of hazardous materials, 
including materials like chlorine that kill thousands of people 
in a few short minutes, travel through densely populated areas 
and near critical infrastructure. Take, for example, this tank 
car full of chlorine, passing within view of this building and 
the Capitol Building.
    The U.S. Naval Research Lab had said that a successful 
attack on just one such tank car could cause 100,000 deaths in 
one half hour. An Ohio-based Al-Qa`ida operative was even 
arrested for plotting to collapse a bridge in New York City or 
derail a train in D.C.
    And last month, just north of downtown Boston, a railroad 
tank car carrying 20,000 gallons of hydrochloric acid started 
to leak close to the Sullivan Station Rapid Transit and just 
yards away from Route I-93, causing major chaos to the morning 
commute; and thankfully, no casualties.
    Yet, there has been no national planning to reroute and 
better secure this dangerous shipment that could be used as 
weapons of mass destruction against us. I plan to introduce 
legislation to address this problem next week.
    And third, passenger rail security. Although we have seen 
an attack in Madrid, we still have deployed only a fraction of 
what we can in order to ensure that we protect against a 
successful attack.
    I thank the chairman.
    Mr. Camp. Thank you. Does the ranking member of the full 
committee wish to make an opening statement?
    Mr. Turner. Thank you, Mr. Chairman. Deputy Administrator 
McHale, welcome to the Homeland Security Committee. I regret 
the acting administrator, Admiral Stone, was unable to be here 
with us. But we appreciate your presence.
    We know that in the months after September 11 of 2001, we 
have taken many important steps to improve our aviation 
security and our transportation security. In fact, I believe it 
has been said that 80 percent of the new dollars that we have 
invested in homeland security has been spent in the aviation 
sector.
    We know that in short order, you hired screeners and 
deployed them to our airports. And the American public has 
noticed the difference. I think they feel comfortable with the 
fact that these screeners are there doing the job that we all 
know needed to be done in light of the serious failures that 
occurred on September 11.
    Last week, Mr. Markey and many others on the Democratic 
side of this committee introduced the Safe PLANES Act to better 
secure our aviation system. It is well documented that airport 
screening, while much improved, is still not as effective as 
anyone would like it.
    The Sunday New Jersey Star Ledger had a headline on May 9 
about Newark Airport, that I am sure you are familiar with, 
entitled, ``Security Fears at Newark Airport.'' This article 
depicts serious security gaps that still remain in aviation 
security at the Newark Liberty Airport.
    Apparently, according to this report, they do not screen 
100 percent of the baggage, as is required. I was reading the 
comments of one of the screeners who said, ``It is all smoke 
and mirrors.''
    Now there may be some answers to this. But I noticed even 
the chief TSA person at the airport acknowledged that they are 
understaffed at that airport. So any comments that you would 
have about that; it is certainly disturbing to know, at this 
late date, we still do not have 100 percent even of the carry-
on luggage and the checked luggage screened.
    As you know, Mr. Markey has been quite outspoken on 
pointing out that we still have yet to implement a full 
screening process for cargo.
    We are also concerned about the cap of 45,000 employees and 
the problem this has created for TSA. This cap obviously was 
set by the Congress. But we believe it is important, if this 
cap is too low, that the department speak out and let us know 
of this inadequacy.
    We also are concerned about the known shipper companies. 
Few of those companies apparently have ever been checked to see 
if they are who they say they are or if they are following 
security regulations. So that is certainly a concern that I 
think this committee has.
    The legislation that we have introduced, the Safe PLANES 
Act, closes many of these security gaps. I hope you will take a 
look at that legislation and what we have put in it. I would 
appreciate your comments regarding the merits--or lack 
thereof--that you may see in those proposals.
    I know you have a difficult task. We have security gaps not 
only in aviation security, but also in rail security, as Mr. 
Markey pointed out.
    We will be introducing a bill in a few days to close some 
of the security gaps that we believe still exist in rail and 
other public transportation. Any input that you could give us 
with regard to those ideas, we would very much appreciate it.
    Thank you, Mr. Chairman.
    [Submitted for the Record.]

Security fears at Newark Airport

Screeners say too many bags elude adequate scrutiny on route to planes

Sunday, May 9, 2004
BY RON MARSICO
Star-Ledger Staff
    Two and a half years after 9/11, thousands of checked bags are 
loaded onto planes at Newark Liberty International Airport each day 
without being scanned for explosives, and security checkpoints remain 
seriously understaffed, according to current and former screeners as 
well as internal e-mail.
    The concerns come from six current U.S. Transportation Security 
Administration employees at the airport and eight former employees. 
Five former screeners spoke on the record, while the others--including 
supervisory level personnel--requested anonymity. The e-mail messages 
obtained by The Star-Ledger, discussing security problems, were sent by 
the airport's ranking TSA officials to supervisors and other agency 
employees.
    The interviews and the e-mail portray an airport security system in 
which short staffing and the pressure to keep lines moving result in 
corners being cut as screeners handle up to 40,000 checked bags and at 
least 40,000 carry-on bags each day.
    ``It's all smoke and mirrors,'' said Dan Sabella, 40, a screener at 
Terminal C until he quit in February. ``I didn't sleep very well when I 
had that job. It became so routine to just have that uneasy feeling. . 
. . Stuff was getting through every day.''
    Top-level TSA officials sharply disagree with screeners' assertions 
that security is being compromised at Newark Airport, one of the three 
airports used by terrorists on Sept. 11, 2001. They do concede, 
however, that the airport is understaffed. They say they are in the 
process of hiring hundreds of new workers.
    ``We've gone through our growing pains, and we have what I consider 
a stable work force and a growing one,'' said Marcus Arroyo, the TSA's 
federal security director at Newark Airport.
    ``We all take this job seriously. We're not going to sleep at night 
if there's a problem,'' said Arroyo. ``I'll come back if there's a 
problem. So will any member of my staff. So yes, I do feel Newark is 
safe.''

MISSED DEADLINES
    The TSA was created two months after the hijacking of four planes, 
including a United Airlines flight out of Newark that crashed in a 
Pennsylvania field after the passengers resisted.
    The agency was given a daunting mission: Replace poorly trained, 
ineffective screeners who worked for private security firms with full-
time, well-trained employees who worked for the federal government.
    Some airports have made the transition faster than others. Newark 
Airport has not been one of the success stories.
    Of the nation's 429 commercial airports, only five missed the 
extended congressional deadline for having all checked bags either pass 
through bomb-detection machines or be manually testing for explosive 
residue. Newark was one.
    Newark missed the original deadline, at the end of 2002, while it 
was installing about 50 of the SUV-size machines required to the scan 
checked bags. A one-year extension of deadline expired this past Dec. 
31 with the machines in place but not all checked luggage going through 
them. Arroyo says manpower shortages were a factor. To this day, the 
airport does not have the staff it needs to fully operate all of the 
bomb detection machines during peak hours.
    Before the deadlines expired, Congress allowed airports to meet 
security requirements by alternate means: by having specially trained 
dogs sniff bags for explosives, by hand-searching luggage or, as a last 
resort, by using a system called Positive Passenger Bag Match.
    Under the bag match option, airlines use computer records to ensure 
no checked bag remains on an about-to-depart plane if its owner has not 
boarded. This measure has been widely criticized because it would not 
deter a suicide bomber whose bag was in the luggage hold below him, set 
on a timer to explode.
    Current and former TSA screeners and supervisors say that, while 
there is not enough staff to electronically scan every bag for 
explosives, they do not often see manual searches or dogs used as an 
alternative. They could not say whether the airlines are using the bag 
match technique.
    John Brennan, 33, of Piermont, N.Y., who spent nearly a year as a 
screener of checked baggage in Terminal A before he resigned in 
October, says continuing staffing shortages make it impossible to scan 
every bag for explosives.
    ``If we physically did every bag, a lot of those planes would be 
delayed,'' said Brennan. ``We didn't do every single bag. We did a 
percentage.'' He said he had no idea what that percentage was, but ``it 
was ridiculous. Just too few bags were being done, in my opinion.''
    Since Brennan's departure, Terminal A has met the mandate, with all 
bags there either going through the bomb-detection machines or being 
swiped with a sterile cloth for signs of explosive residue, according 
to senior TSA officials.
    For example, on Nov. 26, the hectic travel day before Thanksgiving, 
TSA records show Terminal A handled 9,897 checked bags and all were 
electronically scanned for explosives.
    But Terminal B and Terminal C are still unable to electronically 
screen or swipe 100 percent of checked bags. Terminal C is the 
airport's busiest; Continental Airlines, which uses Newark as a hub, 
operates most of its flights there from that terminal.
    Arroyo disputed the screeners' assertion that the lapses involve 
thousands of bags daily. He said alternate means of review, including 
the bag match technique, continue to be used for some bags.
    ``It's not by anybody's choice that we didn't get there on Dec. 
31,'' Arroyo said, referring to the extended deadline. ``I'm able to 
assure that every bag that gets on an airplane has been under some 
level of scrutiny.''
    He said all checked bags would be scanned for explosives in ``the 
very foreseeable future.''
    A TSA spokesman said he believes Newark Airport will meet the 
requirement when the new employees are hired within a few months.
    'MITIGATING' LUGGAGE
    An internal e-mail message indicates that as recently as Jan. 22, 
one ranking airport official worried about the number of bags not being 
scanned.
    On that day, three weeks after the airport missed the extended 
deadline, Lou Illiano, at the time Terminal C's screening manager, sent 
an e-mail to several other high-ranking TSA officials at the airport, 
warning that far too many bags were going onto planes unscanned.
    Illiano wrote: ``I have begun to analyze the bag data. So far I've 
only look (sic) at one day, Jan. 19. It looks like we did about 67 
percent of domestic bags.''
    Given that some 18,000 or more bags are checked onto domestic 
Continental Airlines planes at Terminal C most days, some 6,000 bags 
would not have been screened as required.
    Asked whether only two-thirds of Terminal C's domestic bags were 
being properly scanned for explosives, Arroyo said, ``I'm not going to 
respond to that.''
    Illiano wrote that the goal of screening 100 percent of bags was 
hampered by ``insufficient EWR screeners'' and difficulty in keeping 
``a consistent watch on this operation.'' (EWR are Newark's 
international air-transportation code letters.)
    Illiano added he was ``not sure all the duty managers have grasped 
the importance of this operation.''
    Continental Airlines employees also bore blame, he said, because 
they would send bags directly onto the planes if they determined the 
TSA could not screen every bag for explosives without causing delays. 
In airport parlance, the practice is called ``mitigating'' luggage.
    ``I also think Continental is too quick to decide that we can't 
handle 100 percent, and begin mitigating. As it stands, we cannot keep 
track of the bags they are mitigating,'' Illiano wrote.
    Illiano declined a request from comment.
    Airline officials said in a statement: ``Continental's highest 
priority is the safety and the security of our customers and employees, 
and the assertion that Continental is interested in anything else is 
baseless, ridiculous and without merit.''
    ``The airline fully supports the TSA's multiple efforts, many of 
which are not visible to the traveler, to comply with all federal 
security standards while offering customer-friendly service,'' the 
statement concluded.
    Arroyo denied that TSA loses track of any checked bags. He said the 
agency works in concert with the airlines.
    ``We know what we're doing in terms of bag match, in terms of 
processing, in terms of alternative measures,'' said Arroyo. ``They 
don't call the shots. We call the shots.''
    Mark Hatfield, a TSA spokesman in Washington, D.C., stressed that 
even if other luggage is subjected to Positive Passenger Bag Match, the 
bags of anyone deemed a potential security threat are scanned for 
explosives.
    ``We have several alternative screening measures available that 
allow us to meet the 100 percent checked bag screening requirement. We 
utilize them in random fashion and always ensure that risk-associated 
bags are electronically cleared,'' Hatfield said late last week.

UNHAPPY CONGRESSMAN
    Rep. Robert Menendez (D-13th Dist.), a member of the House aviation 
subcommittee that monitors TSA effectiveness, said relying on Positive 
Passenger Bag Match at this late date does not meet ``the spirit or 
intent'' of the congressional mandate that 100 percent of checked bags 
be screened for explosives.
    Referring to the missed deadline, Menendez said: ``It's just 
unacceptable, especially when one of the flights of Sept. 11 came out 
of here. Technically, I would say they are in violation of the law.''
    Last May, Menendez sent a letter to TSA seeking answers about 
various problems at Newark Airport.
    ``Almost a year later, little has been done to address those 
concerns that I outlined in the letter,'' said Menendez. ``Clearly, 
they have not been responsive, and we're looking for a variety of ways 
to (get them to) be responsive.''
    U.S. Sen. Jon Corzine (D-N.J.) also has asked questions about 
airport security.
    On Feb. 25, following a budget hearing with Department of Homeland 
Security Secretary Tom Ridge, Corzine submitted a written question to 
Ridge asking what Homeland Security--which oversees TSA--was ``doing to 
expedite the 100 percent electronic screening of checked baggage'' at 
Newark. More than two months later, Corzine said, he has yet to hear 
back from Ridge or his staff.
    ``I think it's outrageous, and the fact that Secretary Ridge is 
just ignoring a request is just wrong,'' said Corzine. ``It (the 
airport) is vulnerable until we at least deal with the issue of 
screening luggage that goes onto airplanes.''
    But careful checking of baggage comes at a price for which the 
public has limited tolerance--delays.
    One TSA supervisor cited the case last year of a threat directed 
toward an Air India 747, carrying 400 people, before departure. 
Officials responded by using the most stringent inspection procedures, 
and the flight was delayed four hours.
    Similarly, threats made over the holidays to some Air France and 
Virgin Atlantic flights led to hours worth of delays, said the 
supervisor.

CHECKPOINT WOES
    Newark Airport is one of the nation's busiest airports, handling 
29.4 million arriving and departing passengers in 2003.
    Some 20,000 fliers depart on average each day through Terminal C. 
Terminal A or B each has about 10,000 passengers departing on average 
daily. Checkpoint lanes--where passengers walk through metal detectors, 
take off their shoes and put carry-on bags and personal items on belts 
that carry them through X-ray machines--are the places most passengers 
encounter TSA screeners. The TSA's goal is to keep waits to 10 minutes 
or less and to treat fliers in a professional, courteous manner while 
not compromising security.
    But that mission is an elusive one at Newark Airport's checkpoints, 
say TSA screeners and supervisors.
    Screeners operating X-ray machines are faced with a dilemma: If 
they follow the TSA's standard operating procedure and stop the X-ray 
belt for every carry-on bag to better examine the contents over the 
machine's computer monitor, the line of waiting passengers quickly 
backs up dramatically.
    Supervisors sometimes remind them of the requirement but too often 
demand they work quickly to keep the lines short, screeners say.
    ``The onus was put on us to increase the speed we were screening 
these people,'' said Mick O'Donnell, 36, who worked as a Terminal A 
checkpoint screener from August 2002 until October 2003. ``And I'll 
tell you, it was a little too quick.''
    O'Donnell, who is now an airline mechanic supervisor in Georgia, 
said screeners often had no choice but to violate standard operating 
procedure. The X-ray operator would give cursory looks at each bag's 
contents on the monitor as the parade of luggage streamed through the 
machine.
    ``We wouldn't stop every bag. We would just let them go through--
boom, boom, boom,'' said O'Donnell. ``There just wasn't time to do 
that. . . You would get spoken to if you were running slow.''
    Several current TSA employees in supervisory positions also said X-
ray operators still routinely flout the requirement because of pressure 
from top officials to move passengers quickly.
    Arroyo said the problem of screeners not stopping carry-on bags on 
X-ray machines had not been brought to his attention.
    ``They're not supposed to do that,'' said Arroyo. ``If that's 
somebody's edict, it's not coming from me. If we find out about it, we 
put a stop to it. But I've not had that reported to me.''
    But in an e-mail on Feb. 26, a copy of which was sent to Arroyo, a 
top TSA official called the speedy movement of carry-on bags on X-ray 
machines at Newark Airport a ``serious matter'' that must be 
``quickly'' corrected.
    ``Apparently, it has become common practice for our X-ray operators 
to allow the belts to run continuously and not stop the belt on each 
image,'' Jeffrey Candino, the airport's deputy assistant federal 
security director, wrote to supervisors. ``Anyone who is not doing that 
is in direct violation of the SCP SOP''--screening checkpoint standard 
operating procedure--``and can be disciplined.''
    TSA officials said Candino would not comment on his e-mail message.
    ``Our people can't talk about any screening standard operating 
procedures due to the sensitivity of the material,'' said Ann Davis, a 
TSA spokeswoman.

UNGLAMOROUS WORK
    Ultimately, many of Newark Airport's security woes stem from the 
severe staffing shortages, say screeners and TSA managers.
    Screeners say there is a constant scramble to man checkpoint lanes 
and bomb-detection machines. At times the airport will use only three 
screeners on a checkpoint lane and two on a bomb-detection machine, the 
screeners say.
    Originally, the TSA wanted seven screeners on each checkpoint lane 
and five screeners manning the bomb-detection machines. It lowered the 
recommended minimums to four on checkpoint lanes and three on bomb-
detection machines.
    Screeners at Newark Airport generally earn slightly more than 
$30,000 a year.
    ``It's a brutal job, screening. It's deadly boring and it's deadly 
serious,'' said Robert Monetti, president of Victims of Pan Am Flight 
103 Inc., who lost his son in the 1988 terrorist bombing over Scotland 
and has lobbied since for improved aviation security. ``And that's a 
deadly combination.''
    Deliberate interruptions in routine, such as switching jobs on the 
checkpoint lane, are intended to keep screeners sharp-minded. But 
Sabella, the former screener who spent 1 1/2 years with the TSA, said 
shorthanded lanes can leave screeners unable to properly break the 
monotony of the assignments--such as staring at X-ray machine monitors 
to find contraband--during eight-hour shifts.
    ``You can't take a break. You can't be efficient,'' said Sabella. 
``You can't rotate every 30 minutes and be refreshed.''
    TSA officials say they are working hard to hire more screeners at 
Newark after an unsuccessful effort to attract enough part-time 
employees. The agency plans to hire as many as 400 more full-time 
screeners in the next two or three months, bringing the total security 
force to about 1,600. That number should be sufficient to meet the 
congressional requirement for electronic screening, Arroyo said.
    Werner Ledwon of Staten Island, who works as a screener at a 
Terminal A checkpoint, said the TSA is trying hard to achieve its 
mission and grapple with the staffing shortages.
    ``Like any new company, you're going to have some rocky roads. . . 
. I think we're doing everything we can possibly do,'' said Ledwon, 55, 
an Air Force veteran. ``I'm from the old school. You make it work, even 
if you were down to one guy. . . . I'm proud of what I'm doing.''
    Most of those interviewed, however, contend the problems are too 
severe to overcome without increased manpower.
    Menendez called for the TSA to find ways to increase staffing 
during peak travel periods. ``The bottom line is there's a very 
significant employee pool that is available in this area,'' said 
Menendez, whose congressional district skirts the airport. ``They 
simply say they cannot find people--which is unacceptable.''
    Hatfield, the TSA spokesman, said the attrition rate at Newark 
Airport was 16 percent over the past year. Current and former TSA 
personnel counter that figure seems low.

THE TESTS
    TSA officials acknowledged that security at the checkpoints is not 
foolproof, but they said that is why layered levels of security have 
been incorporated into the system. Examples of the extra safeguards are 
reinforced cockpit doors in the aircraft and air marshals aboard many 
flights, they said. The agency's leadership maintains that security at 
the nation's airports is significantly better than it was on 9/11 and 
continues to improve. The TSA stopped 576,925 prohibited items at the 
nation's airports in March alone, according to Hatfield.
    But screeners' concerns about the chance for a weapon to bypass 
security echo a recent U.S. General Accounting Office report, which 
revealed that federal investigators conducted covert tests and 
identified weaknesses at more than 100 airports in the screeners' 
ability to detect dangerous objects. While the GAO declined to make the 
details public, those who saw them were troubled.
    During a House aviation subcommittee hearing in Washington April 
22, Inspector General Clark Kent Ervin said the nation's aviation 
security screeners--both the federal employees and a handful of private 
contractors--``performed about the same, which is to say, equally 
poorly,'' according to an Associated Press report.
    At Newark Airport, various tests of screeners' ability to detect 
dangerous objects have been conducted since last fall.
    In October, Lockheed Martin tested screeners on such skills as how 
they hand-wand the passengers who set off the walk-through metal 
detectors. In November, TSA agents covertly conducted tests for the 
GAO, returning for another round of undercover drills in March.
    Screeners and supervisors say Newark screeners did not fare well.
    Arroyo confirmed that some 80 percent of the screeners in half of 
one terminal failed Lockheed Martin's first tests. But he said there 
were initial problems with the testing procedures. Within two weeks, he 
said, some 90 percent of screeners were passing.
    Screeners and their supervisors say a different battery of tests 
was conducted covertly by TSA investigators last November and more than 
half of those who were tested failed.
    While Arroyo would not provide specifics, he acknowledged that the 
November TSA test marks were poor, but he said the March drills 
produced ``significantly better'' results.
    ``Knowing how difficult the tests are, I was very pleased with our 
results,'' said Arroyo. ``Had we gotten the results that we had gotten 
back in November, I would have been very upset.''
    Arroyo added that test results can be misleading. The tests are 
supposed to be difficult to pass, he said, because they are seen by the 
TSA as teaching tool.
    ``So the testing is, I hate to say it, designed to create 
failure,'' said Arroyo.
    Screeners and supervisors, however, also point to specific examples 
of repeated checkpoint failures and worry about what else they might be 
missing.
    In October, several walk-through metal detectors missed a steak 
knife nearly 8 inches long, according to a screening manager's e-mail.
    Following months of complaints by screeners about a blurry X-ray 
monitor at a Terminal A checkpoint, the unit was finally replaced in 
January, after a United Airlines passenger discovered he had 
inadvertently passed through security with a box-cutter.
    In February, 78 passengers aboard a Continental flight had to be 
rescreened, and part of Terminal A closed, when a passenger slipped 
past security with a carry-on bag containing an object that resembled a 
gun.
    After investigating that incident, Arroyo said, he concluded the 
screener who said he saw a possible gun was mistaken.
    In the case of the blurry monitor, Arroyo conceded there was a 
problem with the monitor in January, though he said it had passed 
calibration tests.
    ``It wasn't a defective machine,'' said Arroyo. ``Was it as good as 
other machines? Probably not.''
    Arroyo said he did not recall the incident of the steak knife.
    The security director said he is always aware of Newark Airport's 
9/11 legacy and is committed to continued security improvements.
    ``We know that UAL 93 left from this airport and it perished in 
Pennsylvania,'' said Arroyo. ``If any of us could do more than what 
we're doing, we would do it.''

    Ron Marsico covers Newark Liberty International Airport. He may be 
reached at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="52203f3320213b313d12212633203e37363537207c313d3f">[email&#160;protected]</a> or (973) 392-7860.
<SUP>Copyright</SUP> 2004</SUP> NJ.com.</SUP> All</SUP> Rights</SUP> 
Reserved.

</SUP>Security net at Newark Airport

Sunday, May 9, 2004

Here's a breakdown of TSA screening measures used at Newark 
LibertyInternational Airport:

CHECKED BAGS
        <bullet> The preferred method involves sending checked luggage 
        through aSUV-sized bomb-detection machine that checks the 
        molecular content ofitems for explosives.
        <bullet> Alternatively, screeners swipe bags with a sterile 
        cloth, which is thenput into a computer to check for explosive 
        residue.
        <bullet> If neither of those methods can be used, screeners 
        conduct hand searchesof bags or use bomb-sniffing dogs to check 
        for explosives.
        <bullet> As a last resort, each bag is matched to a boarding 
        list of passengerswho are on the airplane. The system is called 
        Positive Passenger Bag Match.

    0CARRY-ON BAGS.
        <bullet> All carry-on bags are sent through an X-ray machine at 
        concoursecheckpoints.

PASSENGERS
    All departing passengers are required to pass through a walk-
throughmetal detector. Passengers who set off the metal detector alarm 
are thensubjected to a secondary screening with a hand-held metal 
detector. Insome cases, pat-down searches can be required before the 
passenger canboard a plane. Some passengers may be advised to remove 
their shoes,which are also sent through the X-ray machines.

ADDITIONAL MEASURES *
    TSA officials say checkpoint and baggage screeners are just one 
layer ina multi-tiered security system that also includes:
        <bullet> A computerized profiling system that flags passengers 
        who might pose arisk. Criteria may include passengers who fly 
        one way, pay for ticketswith cash or travel with little or no 
        baggage.
        <bullet> Reinforced cockpit doors aboard planes.
        <bullet> Thousands of air marshals on U.S. flights daily.
        <bullet> Pilots allowed to carry guns.

<SUP>Copyright</SUP> 2004</SUP> NJ.com.</SUP> All</SUP> Rights</SUP> 
Reserved.

    </SUP>Mr. Camp. Thank you very much.
    Mr. Dicks, would you wish to make an opening statement?
    Mr. Dicks. Yes.
    Mr. Camp. So the gentleman is recognized.
    Mr. Dicks. Thank you. First of all, I want to associate 
myself with the remarks of Congressman Markey. The idea that we 
are not inspecting cargo, I think, is something that the 
administration has to address.
    We need to understand why that is and what the plan is to 
take care of that. Secondly, I am worried about port security 
and the lack of funding in the budget for port security.
    It has been the Congress that has had to add the money each 
year for this endeavor. And I do not get it.
    We should remember what happened with just a brief lockout 
on the West Coast when we could not get containers into the 
West Coast because of this lockout. And it all of a sudden had 
an immediate economic impact, not only on Los Angeles and the 
West Coast cities, but also other cities that get these 
containers from the West Coast by rail or truck.
    And we have a lot of lean production and other things that 
are done with components and parts coming in from offshore.
    Now protecting and securing these ports; yes, I know we, 
under the Maritime Security Act, had to come in with a report. 
But there is still a major question about who is going to fund 
security at these major ports.
    And Operation Safe Commerce, yes, that gives us a picture 
of what we need to do at three or four of the major ports in 
the country. But that certainly is not a comprehensive 
approach.
    So again, I really worry that we are not putting the 
resources into this that is necessary to secure an important 
part of the economy. And I worry about the dirty bomb scenario 
or something of that nature coming in via a container, being 
shipped to Chicago. And you have an event that then could put 
us in a situation where we cannot bring containers in on the 
West Coast, with an enormous potential economic disaster for 
the country, if that should ever occur.
    So again, we are not getting that part of the job done as 
well. That is why a lot of us up here are frustrated about 
this.
    And I have been a supporter of homeland security. I want to 
see us do the right job. And I am pleased that our chairman has 
had these hearings, so that we can at least have a chance to 
discuss this with the administration in public, so that the 
American people know that there are still major gaps in our 
transportation security.
    Thank you, Mr. Chairman.
    Mr. Camp. Thank you.
    Thank you, Mr. McHale, for being here. We have received 
your written statement in advance. And we ask you to summarize 
it in five minutes.
    Thank you.

         Prepared Statement of the Honorable Shiela Jackson-Lee

    I thank Chairman Cox and Ranking Member Turner for holding today's 
hearing and Deputy TSA Administrator Mr. McHale for taking time out of 
his schedule to deliver testimony to this body. It is very important 
that we have an opportunity to analyze the performance of the 
Transportation Security Administration in light of the urgent needs 
that have arisen and that have existed in the areas of aviation 
screening and infrastructure, air cargo security, airport perimeter and 
site access, land security, and personnel.
    Air Cargo security will be a topic that deserves special attention 
from Mr. McHale because we have severe constraints before us with 
respect to the need to balance the integration, introduction, and 
training required for new screening technologies with our ability to 
provide a sufficient number of personnel to operate such technology. 
Without carefully balancing these issues, we will be faced with yet 
another vulnerability .
    As an attempt to address some of these problems, or at least to 
give our TSA some legislative tools with which to address these 
problems, I supported our Ranking Member Mr. Turner, Edward Markey, 
senior member of the Committee, and Steve Israel, member of the House 
Armed Services Committee in introducing the Safe Passengers and Lading 
in Aviation for National Enhancement of Security Act, or the ``Safe 
PLANES Act''--important legislation on behalf of House Democrats to 
improve aviation security throughout the United States of which I am an 
original co-sponsor.
    The bill is comprised of 15 provisions that cover areas such as:
        --strengthening the screener workforce at the Transportation 
        Security Administration (TSA), installing explosive detection 
        equipment and other technologies across the nation where 
        needed, and

        --the implementation of a plan to fully inspect all cargo on 
        passenger aircraft, among others.
    This legislation seeks to address the serious gaps that we 
recognize in our current aviation security plan that is currently being 
administered by TSA. The nature of the vulnerabilities require 
immediate changes and the implementation of improved plans to fully 
screen all cargo, even-handedly install equipment and technology in all 
airports, and increase the number of trained personnel where needed.
    I contributed to this effort by drafting:
        --paragraph (a)(5) of Section 6 entitled `Aviation Security 
        Technologies' and
        --paragraph (b) of Section 7 entitled 'Inspection of Cargo 
        Carried Aboard Passenger Aircraft.'
        --Paragraph (a)(5) of the first section calls for, in 
        connection with a report requirement made to accompany the 
        Department of Homeland Security's (DHS's) fiscal year 2006 
        budget request, the gathering of information that reveals the 
        Federal and airport security personnel's capability of 
        operating screening equipment and technology-speaking to the 
        question of equipment interoperability and staff competency to 
        operate equipment.
        --Paragraph (b) of the second section requires the Secretary of 
        DHS to transmit to Congress a summary of the system implemented 
        to screen and inspect air cargo in the same manner and degree 
        as that employed to screen and inspect passenger baggage 
        pursuant to Section 404 of this provision.

    The language that I proposed seeks to
        --uncover weaknesses in our airport security personnel as well 
        as
        --to give Congress a blue print with which it can better 
        exercise its oversight duties with respect to the screening and 
        inspection of air cargo.
    Among other issues, I will approach Deputy Administrator McHale to 
seek an answer to one of the questions that relates to the problems 
that plague Houston's Airport System--namely, whether the security 
screener hiring cap will be lifted in the near future to accommodate 
the recent growth of airline travel in Houston's three busy airports.
    Additionally, I would like to inquire as to how TSA plans to 
address a problem that was expressed to me by local administrators in 
my District of Houston. I had the opportunity to obtain information 
from personnel of the City of Houston's Homeland Security Division. An 
issue was expressed that relates to the Urban Area Security Initiative 
grant that includes three phases of funding to local areas. In 2003, 
two of the three phases were paid in installments of $8.634 million and 
$23.7 million, and in 2004, the third phase was paid in an installment 
of $19 million.
    Under DHS' funding mechanism, monies were allocated to Harris, 
Montgomery, and Ft Bend counties plus the City of Houston. County 
government executives--elected officials--were given complete 
discretion as to how to spend these monies by virtue of a mandate of 
channeling all grants through the state. Because all counties in the 
state had to agree on how to allocate and spend the monies, there was a 
tremendous functional problem.
    In a recent grant allocation, the City of Houston demonstrated 
needs that exceeded $30 million; however, the county government 
executives, who have veto power as to how best to spend the grant 
monies, voted not to allocate sufficient funds to Houston. Houston's 
three busy airports, its port, its new public transportation system, 
high density problems, and shopping centers have infrastructure and 
vulnerabilities that other counties don't have; therefore, there needs 
to be a system of providing guidance as to appropriate ways to allocate 
the money where it really needs to go and in what quantities. A problem 
that exists is when several elected officials have veto power over the 
spending of grant funds, you run the risk of creating a political 
nightmare because every elected official can provide a justification 
for the allocation of certain amounts of funds to any project or 
initiative.
    In addition, with respect to Houston's airports, there is a major 
concern that they aren't receiving adequate funding from TSA (or from 
FAA). Particularly, as to the need to secure the airport perimeters, 
Airport System administrators have had to use some of the Urban Area 
Security Initiative (UAS) monies.
    Limitations have been placed on the spending of UAS monies such 
that construction costs cannot be paid; however, the construction 
projects are crucial to the securing of Houston's airports. For 
example, there is a need for vehicle inspection stations, a secure and 
safe water treatment plant railcar (that contains chlorine) equipped 
with security features must be funded.
    Similarly, the Houston Police Department requires boats to patrol 
the lakes and dams that feed from Lake Houston. However, under the 
funding scheme of UAS, only boats that can be used at ports can be 
purchased.
    Moreover, relative to the baggage screening process, the Houston 
airports were promised to be among the first to be funded for the 
installation of the new Explosive Detection system (In line Explosive 
Detection System). According to Houston Airport Systems, TSA ran out of 
funds before Houston could receive its allocation. This system will 
significantly reduce staffing needs for TSA and produce more efficient 
operation.
    I hope that these issues, in addition to others brought up on a 
national scale, can be adequately addressed by Mr. McHale. Thank you.

       STATEMENT OF MR. STEPHEN McHALE, DEPUTY DIRECTOR, 
             TRANSPORTATION SECURITY ADMINISTRATION

    Mr. McHale. Thank you, Mr. Chairman. Good morning. And good 
morning, Congressman Turner and members of the subcommittee.
    I am proud to testify before you today on the significant 
progress that DHS and the Transportation Security 
Administration have made to secure our nation's transportation 
systems since our agency was founded a little over 2 years ago. 
But before I talk about the specific actions that TSA and the 
administration have taken, let me first acknowledge the role of 
our partners.
    The nation's transportation system, as you know, is vast 
and complex. Very few of its assets are owned or controlled by 
the federal government.
    The railroad and pipeline networks are largely private. So 
too are the intercity bus companies and the thousands of truck 
operators.
    Airlines are privately owned. And most commercial airports 
are run by local or regional authorities.
    Mass transit is owned or operated by the cities or by 
regional or state authorities. Highways are owned by the states 
and local governments.
    Most maritime assets, including most major port facilities, 
are in private hands. And on the inland waterways, the federal 
government often shares jurisdiction with the states and with 
regional and local authorities.
    Only in air is the federal jurisdiction truly exclusive. 
And for that reason, right from the very start, TSA and its 
parent department, DHS, have worked with our state, local, 
regional and private partners to help secure our transportation 
system. And our partners have risen to the challenge 
magnificently.
    The railroads overcame a 100-year old rivalry to form one 
of the first--and still one of the best--information sharing 
and analysis centers. The mass transit authorities quickly 
stepped up their spending on security after 9/11, with help for 
the Federal Transit Administration and the states.
    Trucking and pilot associations came forward with 
innovative programs to harness the observations of thousands of 
their members to report suspicious activity. Every part of the 
transportation sector recognized that the nation's 
transportation system was itself a victim of the 9/11 attacks 
and has risen to do its part to secure the transportation 
network.
    We could not have achieved a fraction of what we have 
achieved without the help of our partners.
    That said, Mr. Chairman, I am immensely proud of what the 
men and women of TSA have achieved in such a short time. With 
the help of our many partners, TSA has created a new aviation 
security system that is dramatically different from the system 
in place on September 11, 2001.
    TSA's fundamental strategy is to establish a system of 
rings of security. Each ring contributes to our overall 
aviation security system. But we do not rely exclusively on any 
one component.
    We have greatly enhanced domain awareness, gathering as 
much information as possible about the threats, 
vulnerabilities, trends and conditions of the aviation system 
and its environment. With the Department of Transportation and 
the Department of Homeland Security, we have strengthened the 
perimeter security at airports and we have conducted background 
checks on more than one million air carrier and airport 
employees.
    At airport checkpoints, highly trained and qualified TSA 
personnel screen passengers and carry-on items, using state-of-
the-art equipment. And checked baggage is screened using 
explosive detection equipment.
    And Mr. Chairman, let me take a moment to come to the 
defense of our people on the front lines of our nation's 
airports. A recent Washington Post editorial asserted that our 
screeners are no better today than before 9/11.
    That is nonsense, arising from a misunderstanding of covert 
test results and a misreading of recent testimony by the 
Department of Homeland Security inspector general. In fact, the 
IG has assured us that he believes that the differences between 
pre-9/11 screeners' performance and the performance of our 
screeners today is like the difference between night and day.
    The basic training our screeners receive is far longer than 
that of the pre-9/11 screeners. Continuous reinforcement 
training is also part of our screeners' daily routine. And they 
are required by law to recertify their skills every year.
    And there is no comparison between the pre-9/11 testing and 
the testing today. Pre-9/11 screeners were tested using large 
knives, guns and assembled bombs, placed obviously in bags and 
on the person.
    Today's testers use the latest intelligence to do 
everything they can do to conceal weapons and bomb parts and to 
slip them past our screeners. Comparing pre-9/11 testing 
results to test results today is like comparing testing in 
elementary school to college-level testing. Our people are that 
much better.
    Just since the beginning of this fiscal year, TSA screeners 
have intercepted more than 300 guns at airports around the 
country. We have increased the number of explosive detection 
canine teams working throughout the airports to screen checked 
baggage and cargo, search unattended bags and vehicles and 
respond to bomb threats.
    The number of federal air marshals have increased from just 
a handful on 9/11 to thousands today on high-risk domestic and 
international flights. Cockpit doors have been hardened. And we 
have trained thousands of volunteer pilots to serve as armed, 
federal flight deck officers.
    On Saturday, May 1, as directed by the Congress, our first 
prototype class of cargo pilot FFDOs graduated.
    We are implementing our air cargo strategic plan that 
employs the tools, resources and infrastructure that are 
available today, as well as creating a foundation for future 
improvements as new technology becomes available. And the 
result of all this activity is a restoration of public 
confidence in the security of air travel.
    We also continue to look at the transportation sector as a 
whole. With the Department of Homeland Security, we are 
developing a national critical infrastructure protection plan. 
TSA has been delegated the responsibility to develop a sector 
specific plan for transportation.
    We are continuing to work with our federal, state, local 
and private partners on the development of security plans for 
each mode of transportation, with such innovations as the 
Transportation Worker Identification Credential, and are 
working with the surface and transportation modes to 
coordination information and threat sharing.
    Last year, Mr. Chairman, we activated our Transportation 
Security Operations Center in Herndon to serve as a single 
point of contact for security-related operations, incidents and 
crises in aviation and all land modes of transportation. And 
Mr. Chairman, I would be glad to invite you to come out and to 
visit that facility--you or any members of the subcommittee.
    We understand, Mr. Chairman, in conclusion, that as we go 
forward, our strategy will continue to be to do well those 
things that the federal government does best and, when we can 
help our partners discharge their responsibilities, to help 
them do so.
    Aviation, where federal jurisdiction is paramount, must 
continue to be a primary focus of TSA activity. In those 
sectors where regional, state and local, and private 
jurisdictions prevail, TSA must ensure that intelligence and 
best practices are shared widely, that standards of security 
are set and respected, and that federal financial resources are 
used to even out inequalities of security across the sector.
    Mr. Chairman, much has been accomplished. Much remains to 
be done. And we continue to look forward to that challenge.
    That concludes my testimony, Mr. Chairman. And I will be 
happy to answer any questions the subcommittee may have.
    [The statement of Mr. McHale follows:]

                Prepared Statement of Stephen J. McHale

    Good morning Mr. Chairman, Congresswoman Sanchez, and Members of 
the Subcommittee. I am pleased to testify before the Subcommittee on 
the progress of the Transportation Security Administration (TSA) in 
fulfilling its critical responsibilities to protect the Nation's 
transportation systems to ensure freedom of movement for people and 
commerce. I look forward to highlighting many of the significant 
advances TSA has made in the two years since the agency was established 
and since joining the Department of Homeland Security (DHS).
    At TSA, we are designing a security strategy for a broader spectrum 
of responsibilities than we considered in the pre-9/11 world, ranging 
from enhanced awareness and information sharing, through prevention, 
protection, response, consequence management, and recovery. DHS was 
created to lead the unified national effort to secure America. The 
creation of DHS has produced a force multiplier and a vast network for 
awareness and information sharing to protect our Nation. Working under 
the guidance of the Border and Transportation Security Directorate 
(BTS), TSA's mission is completely aligned with the mission and goals 
of BTS and DHS. TSA collaborates extensively with other BTS agencies 
and with DHS components, such as the Science and Technology Directorate 
(S&T), the Information Analysis and Infrastructure Protection 
Directorate (IAIP), and the U.S. Coast Guard (CG), identifying 
opportunities to share information, resources, and expertise. We also 
continue to work closely with the Department of Transportation (DOT) 
and the modal administrations. They provide another vital link with 
transportation providers, and we communicate daily to share expertise 
and to ensure that we make the best use of each organization's 
resources and opportunities.
    TSA continues to work to improve coordination with our sister 
agencies within DHS, as well as with our other Federal partners. In 
this regard, President Bush issued Home]and Security Presidential 
Directive 7 (HSPD-7) on December 17, 2003, which directs the 
establishment of ``a national policy for Federal departments and 
agencies to identify and prioritize United States critical 
infrastructure and key resources and to protect them from terrorist 
attacks.'' HSPD 7 sets the framework for DHS to develop a National 
Critical Infrastructure Protection Plan, and TSA has been specifically 
delegated the responsibility to develop the Sector Specific Plan (SSP) 
for Transportation under the National plan. The development of this 
plan will involve intensive interaction with other DHS directorates and 
agencies, such as IAIP and CG, in addition to DOT. The plan, which will 
be developed over the next several months will: (I) identify 
participants in the sector, their roles and relationships, and their 
means of communication; (2) identify assets in the sector; (3) assess 
vulnerabilities and prioritize assets in the sector; (4) identify 
protective programs; (5) measure performance; and (6) prioritize 
research and development.
    To ensure security in each mode of transportation at an operational 
level, TSA is also working with our federal and other partners on the 
development of Modal Security Plans for each mode of transportation. We 
will expand the Transportation SSP to include modally-specific annexes 
that provide security planning guidance to modal security plan writers 
and industry stakeholders, and explicit links to the other National 
plans such as the National Response Plan (NRP) and the National 
Incident Management System (NIMS). On behalf of DHS and in conjunction 
with other federal agencies, the completed Transportation SSP will 
guide and integrate a family of transportation modal security plans to 
prevent, mitigate, and respond to intentional disruption of the 
Nation's transportation systems while ensuring freedom of movement for 
people and commerce.
    The tragic bombings that occurred in Madrid on March 11 and in 
Moscow on February 6 were terrible reminders of the risk of terrorism 
to rail transportation. To that end, DHS, in conjunction with DOT, 
continually ascertains the threats, probabilities, and consequences of 
potential attacks on rail and other transportation systems using a risk 
management approach. Effective strategic threat-based planning results 
from an evaluation of all available intelligence and an assessment of 
criticality and vulnerability information to determine the overall risk 
environment.
    Domain awareness is the essential starting point of our overall 
transportation security strategy. TSA receives intelligence information 
from many sources, from the intelligence community (IC) and law 
enforcement and from IAIP, which as a member of the IC, routinely 
receives information from intelligence and law enforcement partners. 
IAIP has the overall responsibility at DHS for receipt and analysis of 
information related to threats to the homeland. TSA activated the 
Transportation Security Operations Center (TSOC) in 2003 to serve as a 
single point of contact for security-related operations, incidents, or 
crises in aviation and all land modes of transportation. The National 
Capital Region Command Center is co-located with the TSOC and provides 
seamless integration in protecting the National Capital Region. TSA's 
24-hour watch routinely communicates with industry representatives 
about security events or information of potential security interest.
    TSA also has electronic connectivity to intelligence community 
databases and participates in daily intelligence teleconferences with 
other Federal agencies to discuss threat and incident reports. To 
ensure that all information pertinent to transportation security is 
identified and provided to TSA on a timely basis, TSA has assigned 
liaison officers to major intelligence and law enforcement agencies. 
TSA also receives reporting through its field personnel on security 
incidents that occur at airports and aboard aircraft and from local law 
enforcement. This information is transmitted to TSA headquarters for 
evaluation and appropriate dissemination to intelligence and law 
enforcement agencies. TSA coordinates with IAIP to disseminate specific 
warnings, advisory information, or countermeasures, where appropriate, 
to local law enforcement and the transportation industry. All threat 
information received by the TSA, including information not specifically 
mentioning transportation, is carefully reviewed for its potential 
impact on any U.S. transportation asset at home or overseas. TSA 
consults with other security and technical experts within DHS and in 
other agencies to achieve a comprehensive threat and vulnerability 
assessment. If we conclude that warnings to industry and field 
operators or operational adjustments are warranted, our response can 
take a variety of forms. Top government decision makers are alerted 
immediately, as well as industry stakeholders.
    The next step in our threat-based, risk-managed approach is to 
assess the criticality of the Nation's transportation infrastructure 
assets. Leveraging processes developed by IAIP, TSA developed a 
criticality model and is now deploying this model to determine 
criticality scores for facilities and assets. The vulnerability 
assessment process examines the overall security posture of a 
transportation asset as well as the security posture of the asset in 
response to identified threat scenarios. TSA has developed 
vulnerability assessment tools in concert with DOT modal 
administrations and industry stakeholders. For assets determined to be 
critical, the Transportation Risk Assessment and Vulnerability Tool 
(TRAVEL) will assess an asset's baseline security system and that 
system's effectiveness in detecting, deterring, and/or preventing 
potential threats. For assets determined to be less critical, TSA 
recommends the use of self-assessment tools. To date, one self-
assessment module has been developed, in conjunction with CG, for use 
in the maritime transportation mode. Additional modules will be created 
for the other transportation modes. For the aviation mode, a third 
tool, the Joint Vulnerability Assessment (JVA) will also be utilized in 
conjunction with the FBI at critical commercial airports. Using the 
results of the vulnerability assessments, we can collectively develop 
targeted, layered security measures tied to DHS threat levels, or 
specific intelligence, with maximum flexibility to allow for normal 
transportation activity even during periods of elevated threat.

Securing Surface Transportation
    DHS, in close coordination with our partners at DOT, state and 
local governments, and transit and rail operators, has taken a number 
of steps to address vulnerabilities in the rail and transit systems and 
improve our security posture against attacks. These efforts span the 
spectrum of security, from information sharing and awareness through 
prevention, response and recovery to a potential terrorist attack in 
the United States.
    The Department, working with the Federal Transit Administration 
(FTA), coordinates information and threat sharing for rail and transit 
through the FT A-funded Surface Transportation Information Sharing and 
Analysis Center (ST-ISAC) in partnership with the Association of 
American Railroads (AAR) and the American Public Transportation 
Association. As part of the significant partnership that has developed, 
TSA hosts ST-SAC representatives at the TSOC. When appropriate, DHS 
disseminates Information Bulletins describing specific threats and 
providing suggested protective measures. In addition, DHS hosts 
conference calls with our Federal, state, local, and industry partners 
to communicate current information, obtain an assessment of the level 
of related preparedness, and determine additional short-term measures 
to be taken. For example. in the immediate aftermath of the Madrid 
attacks, the Department released two Information Bulletins and hosted 
National Conference Calls with federal, state and local public safety 
communities, all State and Territorial Homeland Security Advisors, 
officials from 50 major urban areas, and industry stakeholders.
    Prior to the Madrid and Moscow events, criticality assessments of 
rail and transit networks operating in high-density urban areas were 
performed by TSA and FTA. and as a result of these assessments, these 
systems have produced robust security and emergency preparedness plans. 
Between FY 2003 and this year, DHS has used information from these 
assessments to allocate $115 million to high-risk transit systems 
through the Urban Area Security Initiative (UASI) in the Office for 
Domestic Preparedness. Sixty-five million dollars ($65 million) was 
allocated in fiscal year 2003 and $50 million was allocated in fiscal 
year 2004. Grantees may use these funds for such expenses as the 
installation of physical barricades, video surveillance systems, motion 
detectors, thermal/IR imagery and chemical/radiological material 
detection systems, integrated communications systems, and for 
prevention planning, training and exercises, among other things.
    TSA has partnered with the FTA on its ``Transit Watch'' Program, 
and is coordinating with the Federal Railroad Administration (FRA) to 
develop a rail system inspection guide for use by rail law enforcement 
and security personnel to inspect trains for explosives and other 
threats. The Department's Federal Law Enforcement Training Center has 
provided security training to rail and transit operators, and TSA has 
distributed educational information to transit system employees on how 
to recognize and respond to potential terrorist attacks.
    TSA has also hosted security exercises to bring together rail 
carriers, federal and local first responders, and security experts, to 
address potential gaps in antiterrorism training among rail personnel. 
One such security exercise occurred at Union Station in Washington, DC, 
in July 2003, and involved stakeholders, emergency responders and 
enforcement agencies all working to implement the station's Emergency 
Response Plan. In another security exercise, DHS, through TSA, 
partnered with the Naval War College Gaming Department to conduct an 
operation designed to evaluate security awareness, prevention, response 
and recovery of the national transportation system to a security 
incident. The lessons learned from these exercises are being used to 
enhance rail security for the entire Northeast corridor.
    The mass transit and rail industries, and State and local 
governments, have been very proactive in addressing homeland security 
issues. Most recently, transit and rail system operators enhanced their 
existing security plans by taking additional preventive measures in 
cooperation with the Department, including more canine and uniformed 
patrols. increased surveillance, and reporting and awareness campaigns 
in the passenger environment. Rail cargo companies are continuing their 
Alert Level 2, which includes increased security at designated 
facilities, security plan review, and increased spot identification 
checks.
    On March 22, Secretary of Homeland Security Tom Ridge announced 
additional measures to strengthen our rail and transit systems. 
Building on many of the security measures recommended for mass transit 
and passenger rail authorities, the Department is engaging our Federal 
partners at DOT, the industry, and state and local authorities to 
establish base-line security measures based on current industry best 
practices. These include existing security measures currently being 
implemented consistently in the mass transit systems and the commuter 
rail environment and could be adjusted in consultation with transit and 
rail system owners and operators in response to higher threat levels or 
specific threats in the future. DHS will ensure compliance with 
security standards for commuter and rail lines.
    TSA is implementing a pilot program in New Carrollton, Maryland, to 
test the feasibility of using emerging technologies for screening 
passengers and carry-on items for explosives at rail stations and 
aboard trains. This pilot, the Transit and Rail Inspection Pilot 
(TRIP), is being conducted in partnership with AMTRAK, MARC, WMATA, and 
DOT for a 30-day period. Additional phases of the pilot program are 
under consideration. The pilot program does not resemble an aviation-
type solution to transit and rail security challenges, but rather 
provides a venue to test new technologies and screening concepts. Rail 
stations are not self-contained, and passengers have the freedom to 
board and disembark trains throughout their routes. The lessons learned 
from the pilot could allow transit operators to deploy targeted 
screening in high threat areas or in response to specific intelligence.
    Using existing Homeland Security explosive detecting canine 
resources, the Department is developing a rapid deployment Mass Transit 
canine program. These mobile response teams will be prepared to assist 
local law enforcement teams. The Federal Protective Service will lead 
an effort to ensure canine teams from various DHS agencies are 
crosstrained for the rail and transit environment and available for 
augmentation of local capabilities when needed. DHS will partner with 
local authorities to provide additional training and assistance for 
local canine teams. The mobile program would be used predominantly in 
special threat environments and provide additional federal resources to 
augment state and local transit and rail authorities' security 
measures.
    The Department also plans to leverage existing efforts to generate 
additional public awareness by integrating existing passenger and rail 
education materials and awareness programs developed by industry, TSA, 
and FTA. The Department's Federal Law Enforcement Training Center will 
also accelerate current security training programs for transit law 
enforcement personnel.
    DHS's Advanced Research Project Agency is developing a program that 
will focus on research and development of next generation technology 
for High Explosives Countermeasures. The goal of the program is to 
develop and test field equipment, technologies and procedures to 
interdict suicide bombers and car and truck bombs before they can reach 
their intended targets while minimizing the impact on the freedom of 
movement. Research and development efforts such as this will be closely 
coordinated with TSA to ensure that research and development activities 
lead to deployable solutions.
    For highway security, TSA entered into a $19.3 million cooperative 
agreement with the American Trucking Associations (ATA) to expand the 
Highway Watch program. The program trains highway professionals to 
identify and report safety and security situations on our Nation's 
roads. The expanded program will provide training and communications 
infrastructure to prepare 400,000 transportation professionals to 
respond in the event they or their cargo are the target of a terrorist 
attack and to share valuable intelligence with TSA if they witness 
potential threats.
    Under the USA PATRIOT Act, TSA is also required to conduct security 
threat assessments on drivers holding a hazardous materials (HAZMAT) 
endorsement on a commercial driver's license. This effort is being 
pursued in two phases: name-based, terrorist-focused checks will be 
conducted on all 3.5 million HAZMAT drivers by June 2004; and 
fingerprint-based criminal history records checks will begin by January 
31, 2005. TSA is working closely with the States and the private sector 
to develop the necessary infrastructure to establish this program. TSA 
also plans to leverage existing capabilities and infrastructure when 
possible to institute the security threat assessment.
    DHS has a substantial effort under way to strengthen security 
credential programs across the Department. For our part, TSA is testing 
alternatives for a Transportation Worker Identification Credential 
(TWIC) to mitigate potential threats posed by workers and those with 
fraudulent identification. During the current prototype stage, 
beginning this summer, this credential will test the feasibility of 
bringing uniformity and consistency to the process of granting access 
to transportation workers entrusted to work in the most sensitive and 
secure areas of our national transportation system.
    With our Federal government's security capabilities now under one 
roof, in one department, the level of communication and cooperation in 
enhancing intermodal cargo supply chain security among the CG and BTS 
agencies, including ICE, CBP, and TSA, is stronger than ever. BTS is 
leading the effort, with TSA, CBP, and the CG, to develop a more 
comprehensive framework for securing the intermodal cargo supply chain. 
This initiative wil1 also assist in meeting Maritime Transportation 
Security Act requirements for Secure Systems of Transportation by 
incorporating a point of origin to point of destination approach to 
cargo transportation. Agencies are reviewing cargo program, analytic 
tools, and other relevant resources within the Department to identify 
remaining supply chain vulnerabilities.
    TSA is providing CG with technical assistance in the development of 
methods for local operator inspection of passengers and vehicles using 
established ferry transportation systems. TSA is implementing the 
``Synergy Project'' designed to test the long-term feasibility of 
screening and transferring passenger baggage from seaport to airport, 
reducing the congestion at airport security checkpoints caused by the 
influx of large number of passengers disembarking from cruise ships. 
This program is currently underway at the ports of Miami and Vancouver.

Securing the Civil Aviation System
    When it was created, TSA inherited a 30-year-old aviation security 
system. With the help of its many partners, TSA has created a new 
system that is dramatically different from that which was in place on 
September 11, 2001. TSA's fundamental strategy in operating this system 
includes establishing a system of rings of security whereby each 
security ring contributes to our overall aviation security system, but 
we do not rely exclusively on any one component.
    As in other transportation modes, we begin aviation security with 
domain awareness. TSA continuously gathers as much information as 
possible about the threats, vulnerabilities, trends, and conditions of 
the aviation system and its environment. This first ring in our system-
of-systems enables TSA to prioritize, direct resources, and take 
protective action.
    TSA and the Federal Aviation Administration (FAA) have helped fund 
many local airport projects to improve perimeter security, such as 
construction of perimeter access roads, installation of access control 
systems, electronic surveillance and intrusion detection systems, and 
security fencing. TSA has required background checks to be performed on 
more than a million air carrier and airport employees with unescorted 
access to airport secured and sterile areas. Across the country] 58 
Federal Security Directors (FSDs) lead and coordinate all TSA security 
activities at airports, including tactical planning, execution, and 
operating management. At checkpoints, highly trained, qualified 
personnel screen passengers and carry-on items using state-of-the-art 
metal detectors. All checked baggage is screened using a combination of 
explosives detection systems (EDS), explosives trace detection machines 
(ETD), and where necessary, other congressionally approved methods of 
screening.
    Each day, TSA intercepts more than] 5,000 prohibited items at 
airports around the country. Each month more than 40 firearms are 
intercepted at airport checkpoints by TSA screeners. This tells us 
first, that we must continue to be diligent in our screening efforts, 
and second, that many passengers are not voluntarily complying with the 
ban on bringing prohibited items onto aircraft. While the majority of 
cases are not intentional violations, too frequently individuals are 
deliberately attempting to circumvent security or test the security 
system. We have intercepted a knife concealed inside a soda can, a 
sword hidden inside a cane, and a knife hidden within a prosthetic leg, 
just to name a few examples. TSA has held press conferences at many 
airports around the country to educate passengers about prohibited 
items. We prominently post signs in airports to help passengers 
understand which items are prohibited, and we provide detailed 
information on our public website.
    TSA uses its Special Operations Program to provide ongoing and 
immediate feedback to screeners, their supervisors, and TSA leadership 
on screener performance. The Special Operations Program's overall 
objectives are to test the security systems at the airports and to 
introduce difficult, real-life threat items to the screener workforce. 
Once covert testing is completed at a checkpoint, Special Operations 
teams conduct post-test reviews with available screeners to reenact the 
test and provide training. These tests are based on the latest 
intelligence and are far more rigorous than any security testing 
conducted prior to 9/11. Despite continually raising the bar on these 
tests, TSA's screeners and security systems continue to improve over 
time. However, the primary goal of these tests is not to show 
improvement. We make our system testing hard, harder, and harder still. 
to uncover vulnerabilities and to address them.
    To maintain high levels of screener proficiency, TSA's Screening 
Improvement Plan places a strong emphasis on recurrent screener 
training and supervisory training. Over 700 inert Modular Bomb Set (MBS 
II) and weapons training kits have been deployed to every airport in 
the country as an integral part of TSA's recurrent training for 
screeners, enabling them to see and touch the components of improvised 
explosive devices and weapons. TSA is also developing protocols to help 
FSDs conduct their own airport level screening testing. To blend 
nationally and locally developed training, TSA has established the 
``Excellence in Screener Performance'' video training series. The third 
part of our recurrent training program is a series of web-based and 
computer-based screener training programs. Recognizing the need to 
provide our front line supervisors with the tools they need to manage 
the screener workforce effectively, TSA has sent more than 3500 
supervisors to introductory leadership training at the Graduate School, 
United States Department of Agriculture.
    TSA's Threat Image Projection (TIP) program is an essential element 
of TSA's screening improvement plan. All checkpoint security lanes now 
are equipped with TRXs with the 2400-image TIP library, providing real-
time data on screener performance. Data is available quickly at the 
local level and reported to headquarters for aggregated analysis and 
monitoring. Through deployment of TRX machines and activation of the 
expanded TIP image library, TSA is able to collect and analyze 
significant amounts of performance data that has not been previously 
available. TIP is an excellent tool for evaluating the skills of each 
individual screener so that we can focus directly on areas needing 
skill improvement. By regularly exposing screeners to a variety of 
threat object images, TIP provides continuous on-the-job training and 
immediate feedback.
    Today TSA is right-sizing and stabilizing screening operations 
based on security requirements and opportunities for increasing 
efficiencies in business processes. As part of our workforce planning, 
we are evolving to a business model that vests more hiring authority at 
the local level with our FSDs to address airport staffing needs. The 
original methods we used in centralizing recruitment, assessment, 
hiring, and training of screeners were necessary in the fast-paced 
environment to meet the original statutory deadlines. However, this 
highly centralized model is not the right fit for sustaining an 
existing workforce.
    Although the Aviation and Transportation Security Act mandated the 
federalization of airport security screening, it held open the 
possibility that airports could return to contract screening, provided 
the high standards required by law and instituted by TSA are met. TSA 
is currently operating a pilot program at five airports using private 
screeners that, by law, must meet TSA eligibility, training, and 
performance requirements and receive pay and other benefits not less 
than those of TSA screeners. Beginning on November 19, 2004, any 
airport operator may apply to have screening performed by a contract 
screening company under contract with TSA. A recent evaluation by 
Bearing point will assist us in assessing if and how to expand contract 
screening. The report found that the private screening pilot airports 
performed at essentially the same level as federally screened airports. 
Overall, we believe the report confirms that TSA has been successful in 
ensuring equal security at the five participating airports. We look 
forward to applying the insights detailed within the report and the 
lessons learned from the pilot program as we consider guidance and 
procedures for airports to opt out of Federal screening.
    EDS/ETD equipment purchase and installation is the key to 
compliance with statutory requirements for full electronic screening of 
checked baggage. TSA purchases and installs this equipment through a 
variety of mechanisms, including congressionally authorized Letters of 
intent (LOIs), which provide a partial reimbursement to airports for 
facility modifications required to install in-line EDS solutions. TSA 
has issued eight airport LOIs, covering nine airports. TSA is also 
using resources to purchase and install EDS and ETD machines at 
airports outside the LOI process.
    Our National Explosives Detection Canine Team program performs a 
critical role in aviation security, performing multiple tasks 
throughout the entire airport environment, such as screening checked 
baggage, searching unattended bags, searching vehicles approaching 
terminals during increased threat levels, screening cargo on a limited 
basis, screening mail at certain pilot project locations, and 
responding to bomb threats. TSA helps local law enforcement agencies by 
procuring and training selected canines, training selected law 
enforcement officers, and by partially reimbursing agencies for costs.
    The number of Federal Air Marshals (FAMs) was increased from just a 
few on 9/11 to thousands today, and they are now deployed on high-risk 
domestic and international flights. With the transfer of the FAM 
Service from TSA to ICE, BTS has the flexibility to deploy additional 
ICE agents as a surge force to temporarily increase the number of FAMs 
on high-risk flights when threat conditions warrant.
    In light of security concerns, TSA is performing security checks on 
flight crew on domestic and international passenger and cargo flights 
bound for the U.S. TSA will also assume responsibility this summer for 
conducting background checks on aliens who wish to undergo flight 
training in the United States. Vision 100 transferred this requirement 
from the Department of Justice to TSA.
    In addition, commercial aircraft serving the U.S. are equipped with 
new, hardened cockpit doors. TSA, working with its U.S. government 
partners through the International Civil Aviation Organization (ICAO), 
is seeking to encourage compliance of foreign carriers with the 
international requirement for hardened cockpit doors, which went into 
effect November 2003.
    Training of pilots who volunteer for TSA's Federal Flight Deck 
Officer (FFDO) program will continue at a strong pace with requested 
funding of $25 million in FY 2005. On May 1, the first prototype FFDO 
class of cargo pilots graduated. TSA initiated the on-line application 
process for cargo and other flight deck crew members in February 2004. 
In January 2004, TSA began doubling the number of FFDO classes, and we 
plan to provide initial training and qualification for thousands of 
FFDOs by the end of this fiscal year. TSA has streamlined the process 
for pilots to become FFDOs, and candidate assessments are administered 
at 52 locations throughout the United States, with more being added. 
Pilots also must attend re-qualification sessions twice a year to 
ensure that they maintain a high level of proficiency and familiarity 
with program requirements. Ten private, state, and local government 
sites are available for self-scheduling of requalification training. As 
the number of FFDOs grows, TSA will consider expanding the number of 
recurrent training sites to meet their needs.
    Ensuring that flight and cabin crew members receive self-defense 
training will add another layer of security for in-flight aircraft. 
Each of these security enhancements is an additional obstacle that a 
terrorist would have to overcome in order to accomplish his objective. 
Each has been carefully developed with attention to security, customer 
service, and a minimum impact on the flow of commerce.
    TSA plans to institute a Registered Traveler (RT) Pilot Program in 
the summer of 2004 at a limited number of airports. RT pilots will last 
approximately 90 days. TSA anticipates that an RT program could provide 
both security and customer service benefits. TSA envisions that an RT 
Program would be voluntary and may offer those qualified an expedited 
travel experience as they go through the screening checkpoint. A 
security assessment will be conducted on each RT applicant to determine 
eligibility for the program. Upon conclusion of the Pilots, results 
will be analyzed to determine the best program approach for proceeding 
on a larger scale program.
    A total of $60 million is requested for FY 2005 for the second 
generation Computer Assisted Passenger Pre-screening System (CAPPS II). 
CAPPS II is a limited, automated prescreening system authorized by 
Congress. Developed with the utmost concern for individual privacy 
rights, CAPPS II would modernize the prescreening system currently 
implemented by the airlines. CAPPS II is expected to employ technology 
and data analysis techniques to conduct an information-based identity 
authentication for each passenger using commercial information along 
with data each passenger provides to the airline upon making a 
reservation. CAPPS II will combine the results (scores) from the 
identity authentication with a risk assessment. The overall process 
will yield a recommended screening level, based on the degree of risk 
assessed, or specific identifiable terrorist threat. The commercially 
available data will not be viewed by government employees, and 
intelligence information will remain behind the government firewall. 
The entire prescreening process is expected to take only a few seconds 
to complete.
    In its recent report on CAPPS II, the GAO concluded that in most 
areas that Congress asked them to review, our work on CAPPS II is not 
yet complete. DHS has generally concurred in GAO's findings, which in 
our view validates the fact that CAPPS II is a program still under 
development. As we resolve issues of access to data needed, for testing 
CAPPS II, and the testing phase moves forward and results in a more 
mature system, we are confident of our ability to satisfy all of the 
questions that Congress posed.
    Each year, U.S. air carriers transport approximately 12.5 million 
tons of cargo. To deny terrorists the opportunity to exploit our 
thriving air cargo system, TSA has developed an Air Cargo Strategic 
Plan that calls for the focused deployment of tools, resources. and 
infrastructure that are available today, as well as creating a 
foundation for future improvements as technology and resources become 
available. TSA has prohibited all ``unknown shipper'' cargo from flying 
aboard passenger carriers since September 11. 2001, thereby limiting 
cargo to packages from identifiable shippers under the TSA Known 
Shipper program. TSA has enhanced the criteria for participation in the 
Known Shipper program and is rolling out an automated Known Shipper 
database that will allow air carriers and indirect air carriers to 
verify immediately the status of a specific shipper. TSA has also 
mandated inspections of a certain amount of cargo transported aboard 
both passenger and all cargo aircraft.
    Under the Air Cargo Strategic Plan, TSA will work closely with CBP 
to establish a Cargo Pre-Screening system that identifies which cargo 
should be considered ``high-risk'' and work with industry and other 
federal agencies and the airline and shipping industries to ensure that 
100 percent of high-risk cargo is inspected. We are also partnering 
with stakeholders to implement enhanced background checks on persons 
with access to cargo and new procedures for securing aircraft while 
they are on the ground. TSA and CBP are working together on air cargo 
initiatives through four established work groups, making plans for 
future collaboration, leveraging of existing programs, and sharing 
resources and technologies.
    TSA is requesting $55 million in FY 2005 for the continuation of an 
aggressive R&D program to investigate technologies that will improve 
our ability to screen high-risk cargo. TSA will look at new 
technologies for screening large cargo, including pallets and 
containerized cargo. In January 2004, TSA issued a market survey 
requesting submissions and participation of vendors of commercial off-
the-shelf explosives detection technology to support cargo inspection. 
A number of vendors have been tentatively selected for laboratory 
evaluation of their products against the current EDS certification 
criteria. TSA has issued a request for proposals (RFP) for potential 
inventors of explosives detection technology for the screening of 
containerized cargo and U.S. mail to be transported on passenger 
aircraft. This RFP, which resulted in 74 responses, will lead to the 
award of R&D grants to assist in the development of promising 
technologies. At TSA's state-of-the-art research laboratory, the 
Transportation Security Laboratory (TSL), we are conducting a cargo 
characterization study to determine the feasibility of using currently 
deployed explosives detection technology (EDS and ETD) to screen cargo 
while new systems are under development.
    We need to stay at least one step ahead at all times in the 
development of new security technology. The President's FY 2005 Budget 
request includes $49 million for applied research and development and 
$50 million for next-generation EDS. TSA has a robust research and 
development program and works closely with DHS S&T to develop and 
deploy technology that will help make operations more effective, more 
efficient, less time consuming, and less costly. I would like to invite 
the Subcommittee to visit our TSL to see the full scope of efforts 
underway. Several screening and other security technologies are under 
development, including an explosives detection portal for passengers to 
determine if explosives are being carried on an individual's person, 
document scanners to detect trace amounts of explosive materials on 
items such as boarding passes, and scanners for better screening of 
casts and prosthetic devices.
    DHS, in partnership with other federal agencies, is taking an 
aggressive approach to counter the threat of Man Portable Air Defense 
Systems (MANPADS) to civilian commercial aircraft. The strategy 
includes proliferation control, tactical measures and recovery, and 
technical countermeasures. In January, DHS S&T announced the selection 
of teams to develop plans and test prototypes to help determine whether 
a viable technology exists that could be deployed to address the 
potential threat of MANPADS. In addition, as part of the overall 
MANPADS strategy, TSA is performing airport vulnerability assessments 
to identify and map the areas around an airport from which a MANPADS 
attack could be initiated and working with surrounding communities to 
coordinate the efforts of agencies responsible for responding to this 
type of threat.
    I appreciate this opportunity to highlight just a portion of TSA's 
efforts and progress in improving transportation security. There is no 
doubt that securing our nation's transportation system will be both 
costly and time consuming. Distributing these costs fairly and 
equitably is a constant challenge--and a constant goal. Looking ahead 
to Fiscal Year (FY) 2005, TSA and our many partners at the Federal, 
state, and local levels, and in the private sector, will continue to 
reinforce transportation security through innovation, technology and 
enhanced performance. In the two years since its creation, TSA has 
developed a culture of immediacy and a strong commitment to continual 
improvement. The increased variety and sophistication of weapons and 
communication tools available to modern terrorists presents a 
significant challenge. With preventive measures in place, the risk of 
terrorism is reduced, albeit not eliminated. TSA will continue to 
identify and re-evaluate threats and vulnerabilities and make decisions 
that both facilitate transportation and improve its security.
    I will be pleased to answer your questions.

    Mr. Camp. Thank you, Mr. McHale. The chair asks unanimous 
consent that the delegate from the Virgin Islands be allowed to 
question the witness when recognized and to remain on the dais 
when doing so.
    Hearing no objection, so ordered.
    Mr. McHale, there is an upcoming deadline for an opt-out 
process for airports to use private screeners. I realize that 
they would have to have in place a fairly strict security 
standard in order for that opt-out process to occur.
    Can you tell me what action TSA has taken to develop an 
application review process for that? And where in the fiscal 
year 2005 budget is this represented?
    Mr. McHale. As you know, Mr. Chairman, we have run a pilot 
really right from the beginning--a two-year pilot--on 
reprivatization of the airports. And we have had private 
contractors provide security at five airports around the 
country, ranging from San Francisco to Tupelo, Mississippi.
    That pilot was a great success. It showed that the private 
screening companies, with federal supervision provided by the 
Federal Security Directors, could maintain security at the same 
levels and at about the same cost as federal screening.
    We are now in the process of looking at what guidance to 
give airports and contractors who might want to apply to 
provide private screening in the future. The Aviation 
Transportation Security Act provides that, beginning on 
November 19 of this year, airport operators may apply to the 
Administrator to ask for private screening in lieu of federal 
screening.
    So we are getting that guidance out. We expect to get it 
out in the next month or so to the airports so that they can 
begin to make that decision and we can evaluate their 
applications.
    In terms of the budget, there is, I believe, in the 
President's request $130 million to continue screening at the 
five airports where we are doing that today privately. That is 
really a placeholder, since we do not know how many airports 
will apply to go private.
    The best way to look at that budget item is to aggregate it 
with the $2.4 billion that is set aside for federal screening 
at the other airports. That combined pot of money will be used 
to support either federal or private screening, however the 
airports choose to apply.
    Mr. Camp. I am also interested in a little further comment 
on the issue of air cargo security and particularly the known 
shipper program, which is a program to assist in shipments 
transported on passenger planes. I believe we need a strategy 
of analysis and risk management here. But I think this program 
could be expanded to do more in terms of comprehensive 
background checks and other things.
    Mr. McHale. Right.
    Mr. Camp. I am a little concerned about the lack of 
progress at TSA on this program. And I wondered if you could 
tell me how that is going specifically, if you could update us 
on that?
    Mr. McHale. I am glad to do that, Mr. Chairman. Actually, 
we have made quite a bit of progress. We have operational today 
a known shipper database.
    It contains what we believe today is, I was just told, 
about one-third of the known shippers that are known to 
carriers around the country. And we are continuing to populate 
that database.
    Right now, it is still a voluntary database. We are engaged 
in rulemaking to make that mandatory. We expect to get that 
rule out shortly.
    In addition, as we build that database, we are now running 
background checks on the known shippers. We are going to 
continue to make those background checks more rigorous as we 
get more information and are able to hook in with additional 
intelligence systems.
    It is a little different here because we are not so much 
running background checks on people as often as we are on 
concerns. That makes the interface a little bit more difficult. 
But we are working through that.
    Mr. Camp. Thank you very much.
    Mr. Pascrell may inquire.
    Mr. Pascrell. Let's see. Mr. McHale, I have some questions 
to ask you, specifically about Newark Airport and then the 
whole question of port security. You have seen the newspapers.
    Mr. McHale. Yes, sir.
    Mr. Pascrell. You have read the stories. There are going to 
be more stories. The governor yesterday made a statement about 
security at Newark Airport. And in good faith, we will proceed.
    One-third of the bags at Newark Airport go on planes 
without screening. That is a pretty remarkable number.
    One former screener there said that this is all smoke and 
mirrors. I want to know what your plans are and what timetable 
you have for checking all the baggage with electronic detection 
systems. What plans do you have for Newark?
    Mr. McHale. As the Federal Security Director at Newark, 
Marcus Arroyo, who is one of our best, has said, we are in 
compliance with the law at Newark and we do screen all the 
bags, either electronically or using alternate means. That 
said, while we do not talk about specific proportions of bags 
that are screened at any given airport, I can tell you that we 
have significantly increased the staffing at Newark in the last 
few weeks and that I believe that the statements in that 
article are grossly out of date.
    Mr. Pascrell. You are not going to answer the question as 
to when, what is your timetable for putting into effect? I 
mean, I know Director Marcus Aroyo. I think he happens to be 
doing a great job.
    Mr. McHale. I think he is too.
    Mr. Pascrell. I say that to his face and behind his back. 
You are not answering my question, though.
    Mr. McHale. Congressman, let me suggest this. I would be 
happy, in a non-public setting, to discuss baggage screening at 
any individual airport around the country. I cannot discuss 
with you alternate measures and other actions that are being 
taken at particular airports. That cannot be done in a public 
setting.
    Mr. Pascrell. Well, let me say this. I have a lot of 
questions here. Let me say this: I do not understand, Mr. 
Chairman, the rationale behind not providing the public--the 
public has a right to know, let alone the Congress.
    We do have oversight. This is the homeland security. There 
are certain things that are very private. There are certain 
things that are very secret.
    Why is the number, when we said that we would have specific 
dates as to when luggage that was carried on and when luggage 
was put into the belly of an airplane would all be checked, why 
are you afraid? Or let me rephrase. Why are you reluctant to 
tell the public what percentage even of baggage is not checked 
at Newark Airport? The public uses that airport every day?
    Mr. McHale. Congressman, we screen over three million bags 
a day at 448 airports around the country. On any given day, 
there will be machines that are down. There will be staffing 
issues.
    There will be other issues at airports around the country. 
We provide a classified report to the Congress every month on 
the status of baggage screening at individual airports around 
the country.
    I cannot, in a public session, discuss that kind of 
classified information. I am perfectly happy to provide it 
either in closed session or to provide you with a briefing.
    Mr. Pascrell. So you do not--.
    Mr. McHale. I think you will be pleased with where Newark 
is and the progress we are making. But I cannot discuss that in 
detail here.
    Mr. Pascrell. But you do know the answer to the question.
    Mr. McHale. Yes, congressman, I do.
    Mr. Pascrell. So you know the answer to the question, but 
you do not want to tell the public what the answer to the 
question is? Correct?
    Mr. McHale. Congressman--.
    Mr. Pascrell. Am I putting words in your mouth?
    Mr. McHale. As I said, we do not discuss specific steps--.
    Mr. Pascrell. Look, look, wait a minute. Mr. Chairman, I 
have asked it three times. You know, I asked it in good faith. 
I praise the director before this meeting, after this meeting.
    I mean, what the heck more can I do? I think the public has 
a right to know--has a right to know--whether the baggage at 
Newark Airport is being checked. I think this is preposterous.
    Let me ask you this question--.
    Mr. McHale. Congressman, the baggage at Newark Airport is 
being checked.
    Mr. Pascrell. I am talking about how much is not being 
checked. How much is going on an airplane that is not being 
checked?
    If you are not going to answer the question, let me go to 
the second point. Are you testifying today that there are a 
sufficient amount of screeners at Newark Airport? Is that what 
you are testifying today?
    Mr. McHale. We are bringing out screeners as we speak. I 
would say that today there probably is not a sufficient number 
of screeners at Newark Airport. I expect that there will be 
within about the next 10 days to 2 weeks.
    Mr. Pascrell. So that if we check back in 10 days or 2 
weeks, that there would be adequate screening? And you admit 
that there are not, there were not a month ago? There were not 
2 months ago?
    Mr. McHale. We have been having--.
    Mr. Pascrell. And perhaps the 45,000 arbitrary cap that we 
placed on it was a wrong number, that we should have had more 
people or a pool of more people? The suggestion that we use 
former police officers, former law enforcement officers has 
still not been used? But you tell me that in 10 days, you will 
have an answer to that question or we will have it resolved.
    Mr. McHale. Within 10 days, we will have the screening at 
Newark at the level that they are authorized to have. We have 
been using a lot of overtime at Newark. We want to cut down on 
that so that our staff is not stressed.
    We have a lot of former law enforcement officers in our 
screening workforce, a lot of ex-military personnel in our 
screening workforce. In fact, we were required to give 
preference to them. So we have them out there.
    Mr. Pascrell. Two other questions.
    Mr. Camp. The gentleman's time has expired.
    Mr. Pascrell. I have not given an opening statement. Can I 
continue to ask some questions?
    Mr. Camp. I will give the gentleman an additional minute. 
However, the additional three minutes comes for those who 
attend within five minutes of the gavel going down. And the 
gentleman was outside of that window.
    But I will extend him some more time. I do want to say--and 
this will not come out of your time--that I understand your 
reluctance to go into this confidential airport-specific 
information in this committee hearing.
    However, I have never seen this monthly confidential report 
that you refer to that would give us the individual status of 
airports. I would like to arrange an opportunity for that 
information to come to the subcommittee and we will have a 
classified session on that individual information.
    Mr. McHale. Absolutely, Mr. Chairman.
    Mr. Camp. Thank you.
    Mr. McHale. I will make sure that happens.
    Mr. Camp. And I will give the gentleman an additional 
minute.
    Mr. Pascrell. Thank you. And Mr. Chairman, that is very 
important. I would have asked--continued to ask--if the 
committee would get those, all the members get a copy of that 
report. I think it is important that we know that, Mr. 
Chairman.
    Mr. Camp. We will have an opportunity for all of us to get 
that information.
    Mr. Pascrell. We have no other way to measure whether we 
are going in the right direction or not.
    Now let me ask you this question: who is responsible for 
airport perimeter security?
    Mr. McHale. It is the combined responsibility of the 
Transportation Security Administration and the airport 
operator.
    Mr. Pascrell. If there is a decision to have people 
patrolling the perimeter, as an example, or surveillance 
equipment deployed or new physical barriers, whose 
responsibility is that?
    Mr. McHale. The airport operator has developed a security 
plan that includes that kind of information. And that plan has 
to meet certain standards that we set and be approved by TSA.
    Mr. Pascrell. Does every one of the major airports in this 
country have such a plan?
    Mr. McHale. Yes.
    Mr. Pascrell. Perimeter. Is it being implemented?
    Mr. McHale. Yes.
    Mr. Pascrell. You are stating for the record that every one 
of these major airports have a perimeter security plan and it 
is being implemented.
    Mr. McHale. They have an airport operator plan that covers 
perimeter security. Obviously, there are violations of those 
plans. And our job is to enforce them.
    Mr. Pascrell. My final point is this: why do we not ask 
employees working within the airport to go through screening 
like you do and like I have?
    Mr. McHale. We do screen a lot of the vendor employees. We 
are working with the airports to improve that within the 
sterile area.
    All of the employees who work in the sterile area and the 
secured area of the airport have extensive background checks. 
One of the reasons we have looked at that as a solution is, if 
you think about the kinds of things that workers have access to 
on the ramp--the kinds of tools, the kinds of chemicals and the 
other sorts of things that they have access on the ramp--they 
really do not have to carry very much into the airport area to 
do harm. We need to know who they are and be assured about 
their backgrounds.
    Mr. Pascrell. So you think we can see the day that they 
will be screened?
    Mr. McHale. There will be screening of the workers going 
into the sterile area, we expect. Yes.
    Mr. Pascrell. Not the vendors?
    Mr. McHale. The vendor workers who are in the sterile area, 
but not at this point, except in certain airports, on workers 
going onto the secured area.
    Mr. Camp. The gentleman's time has expired. Thank you.
    The gentlewoman from Texas may inquire.
    Ms. Granger. Thank you.
    I am going to continue on the question about the screeners 
because Hartsfield-Jackson Atlanta International Airport has 
now waits of 90 minutes with lines half a mile long. And they 
are saying it is a lack of screeners on hand. And you are 
saying that perhaps they are going to staff up.
    But at my airport, DFW International Airport, TSA has 
informed the airport it will be reducing the screener workforce 
by 179 positions. This future staffing level is well below the 
staffing level that TSA's own federal security director at DFW 
believes is necessary to man the checkpoints effectively.
    DFW already has four separate security checkpoints where 
the waits extend 30 minutes during peak hours. And that is not 
during the summer travel time that we are getting ready to 
enter.
    So I want to know what rationale exists for reducing the 
screener workforce levels at DFW airport in particular or other 
large airports?
    Mr. McHale. I think actually DFW will probably stay at 
about the level it is today. The levels that a lot of airports 
are looking at are levels that were set when we had 49,600 
screeners at the beginning of this fiscal year.
    So we are really now, we have actually been operating at 
about 45,000 screeners, give or take a few, since right about 
Thanksgiving of last year, or a little after that, in the 
middle of the holiday season.
    Congresswoman, as you know, we did handle the holiday 
season, I think, very well. We are developing plans and working 
closely with the airports, the airlines, and our Federal 
Security Directors to deal with the summer season effectively.
    Also at DFW, thanks to your help, we are moving forward 
with the inline baggage system, which will be more efficient 
and more effective and will help us bring some of the screeners 
who are now working on baggage up to the passenger checkpoints.
    Ms. Granger. So you are saying you are not going to reduce 
it by 179 positions?
    Mr. McHale. I have to check the exact numbers for that 
airport. But my understanding is, what they have on board today 
is about what they are going to have into the future. It may be 
a few more, but I would have to double check that. I will get 
back to you on that.
    Ms. Granger. I think you should because that is certainly 
not the information they are giving me. And as I said, their 
own federal security director is saying that would be 
inadequate.
    Mr. McHale. I think it is a reduction from the 49,600 
figure earlier this year. But I will get back to your office on 
that.
    Ms. Granger. Are you reducing though, intentionally 
reducing, the screener workforce levels at large airports?
    Mr. McHale. Not at most of the large airports, as far as I 
know. There may be some adjustments at a few of them. But 
generally, I think the large airports are either growing or 
staying about the same.
    Ms. Granger. Okay. What are you doing to address the 
concerns? How are you getting the information out? In other 
words, if the airport is telling me one thing, my airport that 
I work with very directly, and you are telling me something 
else, then where is the breakdown in this communication?
    Mr. McHale. We have not yet finalized or issued final 
staffing allocations for the 45,000 level. Frankly, we are 
going to be adjusting that and reshaping that and re-
rightsizing that every day, every week, as we go on, around the 
country.
    I would say the breakdown that is we have not gone back to 
the airports and said, ``You know, that figure you got last 
year based on 49,600, well, Congress has said we should be 
operating at 45,000, so that earlier figure obviously is not 
the right one.''
    We need to communicate better on that.
    Ms. Granger. I know that Secretary Mineta stated 2 years 
ago that wait times of more than 10 minutes would be 
unacceptable.
    Mr. McHale. Right.
    Ms. Granger. With the federal screeners. And now we are 
looking at wait times of 30 minutes or more. Are we saying that 
is acceptable then?
    Mr. McHale. No, we would like to keep the wait times as far 
down as we can. We work with the airports and the airlines to 
reduce the overall hassle-factor in moving through an airport--
whether it is ticket check-in or wherever it might be.
    We have actually done pretty well, if you take an average 
across the country, of peak time wait times. They average about 
11 minutes.
    But in almost every major airport, there is at least one 
peak during the day, when many flights leave within a very 
short period, and that peak is not always related to screeners. 
Even in Atlanta as you mentioned, there is a throat where there 
are only 18 lanes. Those 18 lanes can be working flat, out and 
you will still have a long line early in the morning.
    They are adding four more lanes there. We are going to 
staff them. Hopefully, that will help to ease the problem 
there. We are looking at that kind of solution, where we can, 
around the country.
    A lot of it is physical. Some of it is staffing.
    Ms. Granger. And last, what are you doing? What is the most 
immediate thing that TSA is doing to improve security on rail 
transportation?
    Mr. McHale. We have a lot of different programs we are 
doing there, where DHS and TSA are providing additional canine 
teams to mass transit. We have a pilot program we are running 
at New Carrollton right now called TRIP, which is primarily 
looking for explosives. We are trying to see how you could 
screen passengers for explosives. This is much more difficult 
in the rail environment than in the aviation environment 
because it is such an open system.
    We are working on additional transit inspection programs. 
We have targeted inspections going on; we are working with the 
transit authorities, looking at their security arrangements to 
try to improve them. We have vulnerability assessments of 
critical infrastructure for transit authorities that we are 
working on, and, we are helping them also with tools to do 
their own criticality assessments. And of course, there is 
grant funding that is going to the states and the cities to 
help them with transit security.
    Ms. Granger. Thank you.
    Mr. Camp. Thank you.
    Mr. Markey may inquire.
    Mr. Markey. Thank you.
    It is my understanding that in the next couple of weeks, 
TSA will be issuing a hazmat transportation security plan for 
the District of Columbia region, where we are right now, and 
that it will become a model for national hazmat transportation 
security. Will this plan include rerouting shipments of 
hazardous materials where possible so that they do not go 
through densely populated areas?
    Mr. McHale. Well, there actually may be some rerouting. But 
it will be fairly limited.
    One of the problems we have, particularly on the East 
Coast, is that all of our major rail systems typically run 
through city centers and it is not easy to go around them. 
There are really very few additional rail lines. So we have to 
work with what we have then.
    Mr. Markey. Let me be more specific then. Will tanker cars, 
full of hydrochloric acid, be allowed to pass as close to the 
Capitol as they are allowed today to pass in this recently 
taken picture?
    Mr. McHale. Yes, sir.
    Mr. Markey. They will still be allowed to pass that close?
    Mr. McHale. There is no way to route them differently; no 
effective way to route them differently.
    Mr. Markey. Is there no other route to get that 
hydrochloric acid to its destination other than allowing it to 
travel right past the Capitol, with no additional security 
placed around it?
    Mr. McHale. There is a rail line in West Virginia that is 
narrower, much more curvy and raises safety concerns. And then 
the next route is west of the Appalachians.
    Mr. Markey. Do you support the rights of states or cities 
to protect their most vulnerable areas by rerouting such 
shipments? Or do you retain, to yourself, the federal 
government, the ability to decide what is safe enough for an 
individual city?
    Mr. McHale. I think that is part of our federal system. We 
need to look at what restrictions cities and states can put in 
place that may or may not shut down interstate commerce. So if 
we can work with the states--.
    Mr. Markey. In other words, would you support the city of 
Washington saying, ``That is too dangerous to be allowed that 
close to the critical infrastructure of the city?'' Or would 
you retain to yourself the right to override the city?
    Mr. McHale. We are working very closely with the city.
    Mr. Markey. Would you retain the right to override the 
city?
    Mr. McHale. Actually, I do not know that TSA has the 
authority to override the city. I would argue that the federal 
government probably does.
    Mr. Markey. The federal government would have the right to 
override. All right. What additional security measures is the 
department planning to require for shipments of hazardous 
materials?
    Mr. McHale. We are looking at notice. We are looking at 
additional security. We are looking at timing. We are looking 
at flow.
    It is going to be quite a well developed plan that 
cities--.
    Mr. Markey. What is the additional security?
    Mr. McHale. There will be inspections of the track and the 
routing before hazardous materials move through. That is why we 
need the notice. There will be a number of steps that will go 
into that plan.
    The city is actually working very closely with us on it and 
very effectively.
    Mr. Markey. How many technologies have been certified by 
TSA for inspecting cargo going onto passenger planes?
    Mr. McHale. We use both ETD and EDS technologies, as well 
as, of course, our canines, to do some inspections.
    Mr. Markey. Have you certified technologies to screen cargo 
going onto passenger planes?
    Mr. McHale. We certified those technologies for baggage. We 
can use them for cargo. The certification would be the same.
    Mr. Markey. Now last year, the Bush Administration opposed 
my amendment, which called for the full screening of cargo 
which goes onto passenger planes. Has the Bush Administration 
yet revisited and reversed its position?
    Or does it still maintain that, while we screen the bags of 
passengers which go on planes, every one of the bags, that we 
are not going to screen all of the cargo which goes on 
passenger planes? Have you reversed that position yet? Or do 
you still maintain that it is not necessary to screen the cargo 
which goes on passenger planes?
    Mr. McHale. No, we have not reversed that position. The 
technology that we have out there today is useful to screen 
some of the cargo. And it is used to screen some of the cargo.
    But we do not yet have technology--.
    Mr. Markey. I understand. In other words, back a year ago, 
you said you did not support my amendment because the 
technology did not exist.
    Mr. McHale. That is correct.
    Mr. Markey. Now you are saying that the technology does 
exist and that you have certified that it exists. So will you 
remove your opposition to my amendment so that we now mandate 
that the technology be used to screen all the cargo in the same 
way that we screen all of the bags of passengers?
    Mr. McHale. With all due respect, Congressman, that was not 
my testimony. We have technology that we can use to screen some 
of the cargo. And we do screen some of the cargo. And in fact, 
we encourage--.
    Mr. Markey. Let me ask you this: will you mandate that the 
technology that you have certified be used to screen all of the 
cargo that can be screened by that technology?
    Mr. McHale. Right now, they are screening quite a lot of 
it.
    Mr. Markey. I want to know if you support using the 
technology which you have already certified to then screen all 
of the cargo which can be screened by that technology. Do you 
support that?
    Mr. McHale. We do not believe that that is necessary at 
this time.
    Mr. Markey. You see, that is the disagreement that we have.
    Mr. McHale. That is correct.
    Mr. Markey. You keep arguing that the baggage of innocent 
passengers should be screened, that their shoes should be taken 
off, that their wristwatches should go through the screening, 
and yet cargo should be placed on the very same plane without 
the same level of screening, even though for most of this 
cargo, the technology already exists to screen it.
    And the Bush Administration continued to represent a 
position of the cargo industry and the airline industry, in 
opposition to the passengers on these planes who are placed at 
unnecessary risk, even though the technology exists to screen 
the vast bulk of the cargo which is going on next to their bags 
in the cargo hold of passenger planes all across America. It is 
unfair to passengers to put them at that risk, knowing that Al-
Qa`ida could exploit that weakness in our system because you do 
not screen cargo that you could screen with existing 
technology.
    Mr. Camp. The gentleman's time has expired. But I would 
like the witness to take a moment and answer, please.
    Mr. McHale. Thank you. Congressman, as you know, we have 
what we believe is a comprehensive approach to this. It does 
include the known shipper database. I know that you do not 
support that particularly.
    Mr. Markey. Well, I am a known tripper. And I have my 
ticket. But they still, even though I am a known tripper, make 
me take off my shoes and make me put my bag through.
    A known shipper, who is no more trustworthy than me, is 
allowed to put their cargo on without going through screening 
and put it right next to my bags that have been screened. And I 
do not think it is fair to American passengers to put them 
through that kind of a dual system.
    Mr. McHale. Well, we believe our strategy--using the known 
shipper program, enhancing that program with background checks, 
doing random screening using technology, using dogs, keeping 
quite a lot of cargo off passenger planes--together forms a 
comprehensive approach that balances the need for security 
against the tremendous contribution to the economy that air 
cargo makes on passenger planes.
    Mr. Markey. Thank you, Mr. Chairman.
    Mr. Camp. Thank you.
    Mr. Markey. I apologize. One-third--.
    Mr. Camp. The gentleman has run over 2.5 minutes from his 
time, an ample amount of time.
    Mr. Markey. Can you give me 10 seconds?
    Mr. Camp. Ten seconds, and then the chairman of the 
committee will be recognized.
    Mr. Markey. You have earlier testified that only one-third 
of all known shippers are in your database, which means that 
two-thirds of the shippers are unknown shippers. And yet, they 
get to put their cargo onto passenger planes, the same way that 
known shippers do.
    It is a very dangerous program that could come back to 
haunt our country and the passengers on the plane, where an 
explosion could occur.
    Thank you, Mr. Chairman.
    Mr. Camp. All right. The chair recognizes the chairman of 
the full committee, the gentleman from California.
    Mr. Cox. An important part of our current examination of 
the department, for purposes of drafting an authorization bill, 
is looking at the organizational structure of DHS. Of course, 
when the Transportation Security Administration was created by 
Congress, there was no Department of Homeland Security. That 
has now been moved wholly into DHS.
    And the question that I would ask you to address--I am 
going to give you just a couple and this is the first of them--
is whether TSA, in your view, should operate as a distinct 
entity within DHS. Or are we on a road to further 
organizational progress and integration?
    The second, to what degree should TSA exercise authority 
beyond aviation security? At least on paper, the mandate 
extends to transportation, not just to aviation.
    But I note that the 2005 budget request of $5.3 billion 
includes just two percent for anything besides aviation. Of 
$5.3 billion, only $146 million is for some other purpose.
    Third, what is the goal, in your view, of IAIP? And to what 
extent should the infrastructure protection mission of homeland 
security be coordinated with TSA and its responsibilities, 
particularly in other areas of transportation?
    Because we know, for example, IP is working with rail. We 
know that IP is working with other forms of transportation. And 
so how should be integrate all of that?
    And then, as a somewhat unrelated question, but a question 
in which I am equally interested, the Bearing Report--and Mr. 
Chairman, you will have to tell me whether this question has 
been asked and answered--concluded that, based on quantitative 
evidence, the Kansas City Airport outperformed its federal 
counterparts in Category One. And I wanted to get your thoughts 
on why that might be.
    Mr. McHale. Okay, Congressman. TSA as a separate entity--
let me address that within the context of the discussion of 
IAIP as well. When Congress enacted the Homeland Security Act 
and created the Department, it very much encouraged the 
Department to look for synergies and integration and how to do 
the job better.
    The thinking on that is evolving all the time, and we have 
a lot of discussions around that.
    I am, however, aware of no plans to change TSA's status as 
a separate entity. How we go about our job may evolve over 
time.
    I am not saying that such plans may not develop. But as far 
as I know, at this point, there are no plans.
    The Homeland Security Act kept TSA as a separate entity 
until November of this year. The Department could not change 
it. After that, the Secretary is free to do so.
    I think we probably will be waiting until that timeframe to 
look at that and into the years ahead. There is no deadline for 
doing anything like that.
    I think there is a lot of work still to be done within TSA, 
both in the aviation and in the non-aviation arena. I think 
that what we will be looking at, in considering TSA's 
continuing existence, is how best to get that work done.
    As a separate entity, TSA brings a lot of focus to the 
issues. But more integrated, maybe we can bring to bear in a 
more effective way a lot of the other resources of the 
Department. So those are the kinds of things we will be 
thinking about as we go forward.
    Very similarly, IAIPs' mission and role within the 
Department and its role with regard to infrastructure 
protection is still evolving. Within the government, there are 
many entities that have a role in infrastructure protection, 
and IAIP clearly oversees that. The Department of Energy, the 
Department of Agriculture, all have roles in infrastructure 
protection. IAIP sets the overall structure for that.
    Right now, TSA has been given the lead to develop the 
sector specific plan for transportation, in recognition of its 
important intermodal responsibilities.
    Briefly, on the maritime and land issue, the budget of TSA 
outside of aviation is small. It is a recognition that TSA only 
has one part of the mission to protection maritime and land.
    We focus particularly on maritime integration in 
transportation for the intermodal connections. We are trying to 
make sure that we identify any cracks or gaps.
    When you look at the overall budget, including a vast 
budget for the Coast Guard--perhaps not vast, the Coast Guard 
would probably say it was not vast, but from my perspective, it 
is vast--more of the budget calls for the Coast Guard to 
protect maritime.
    A lot of other agencies are involved in providing funding 
and other things. I think you need to look at the federal 
government budget as a whole in the maritime and land area, not 
just at the TSA budget.
    And briefly, lastly, at Kansas City, it is true that the 
study found that the screeners at Kansas City were better at 
providing security than federal counterparts at the few other 
airports they were compared to. However, they did not compare 
them to all Category One airports. They compared them to a 
sample.
    They found that the TSA and federal and private screeners 
are pretty much the same at other airports. Those of you who 
have been to Kansas City know it is a very different airport. 
It has a very unusual layout.
    We are very proud of the work that the screeners there did 
to get that result. But I think we probably need to drill down 
to a little bit more detail as to why we got that result there.
    It could be layout. It might be training. It might be 
motivation. There are a lot of things we need to look at.
    Mr. Camp. The gentleman's time has expired. The gentleman 
from Oregon is recognized for five minutes.
    Mr. DeFazio. I thank the chairman. Thank you for being here 
today.
    I am going to be meeting with a group of flight attendants 
shortly. And one of their concerns is that there are not 
uniform guidelines regarding mandatory security training for 
flight attendants.
    As they observed, in some airlines, they are shown a 20-
minute video. Other airlines take this much more seriously, 
realizing the vulnerability and essentially that they are the 
first line of defense or first responders. And they have two 
days of hands-on and intensive training.
    Do you have any intention--or does the agency have any 
intention--of issuing guidelines that would set standards, as 
opposed to leaving it to the discretion of the airlines?
    Mr. McHale. Actually, this was one of the first regulatory 
packages that TSA issued in early 2002 to set some basic 
standards for that training. You are correct, however, to say 
that today, while those are minimum standards, the airlines do 
vary quite a bit as to how they provide that training.
    Mr. DeFazio. Right. So what I would suggest is: are you 
looking at a higher floor?
    Mr. McHale. Right.
    Mr. DeFazio. If your base standards are met by a 20-minute 
video, which really I do not think anybody would think was 
adequate, are you looking at something that would require a 
higher base? Because what you get is the cheapo, cut-rate 
people say, ``Oh, we will just show them a 20-minute video.'' 
And the mainline airlines and the good operators take it 
seriously and say, ``Well, this is going to cost us a lot of 
money, but we will do it.''
    But then they say, ``I have to compete. How are we going to 
compete with someone who shows a 20-minute video and those 
flight attendants do not have all that down time? I guess we 
had better move from two days of training to 20-minute 
videos.'' We are going to drag down the whole industry.
    Mr. McHale. Right. As you know, in the Vision 100 Act that 
Congress passed last year--.
    Mr. DeFazio. May.
    Mr. McHale. No, where we are. We are going to develop 
training for the flight attendants. We are going to have that 
hopefully piloted later this fiscal year and be ready to 
deliver it next year.
    Mr. DeFazio. And that would be--.
    Mr. McHale. In that process, we are actually looking at 
what is the base level, and what would that advanced level 
course do, and how the two would fit together. So we are taking 
another look at it.
    Mr. DeFazio. Okay. On the allocation of screeners, I am 
concerned that not only are we going to see a lot of 
inconvenience because of the number or lack of screeners this 
summer, but as with the article that Mr. Pascrell referred to, 
there are screeners who say, because of the load that they are 
put through, that they are basically doing things that they do 
not think are safe.
    I mean, they are moving bags through too quickly. They are 
ignoring some things. They are not giving everything the 
scrutiny they should.
    Where are we in moving toward this cap, which was 
arbitrarily created out of thin air and imposed by Congress and 
agreed to by the administration, of 45,000? And where are we in 
reallocating to the airports, from that 45,000? And do you 
honestly believe that, at the level of 45,000, we can not only 
prevent long lines, but we can provide the best possible 
security?
    Mr. McHale. We have actually been right around about 45,000 
since late last calendar year. So we were there through the 
Christmas holiday, pretty much, at airports around the country. 
We managed to get through that period.
    We recognize that that was a short period, so we were able 
to focus a lot of effort there. We have developed a plan to 
deal with the summer. The increases we are seeing--and I am 
proud of this--we are seeing quite a resurgence in air travel. 
I think people are getting back into the air, and that is a 
great thing. That is also something that is obviously of 
concern to us as we go forward.
    We think we can handle the loads generally that we are 
seeing today with the 45,000 level. As strain builds up on 
that, we would come back to the Congress and point out where we 
have issues and problems.
    We are redistributing the workforce. We have not yet gone 
back out to all the airports with their reallocations at the 
45,000 level. We need to do that. Congresswoman Granger raised 
that with me, and we certainly need to do that shortly.
    We are redistributing the workforce to address precisely 
the kinds of security issues that you raise to make sure that 
we can deliver security. Security is the number one mission.
    Mr. DeFazio. I understand. On the bag match, I have asked 
this question before, but in the modern day world where we have 
suicide bombers, it seems to me that bag match is not a 
substitute for and should not be used as one of the criteria 
for saying we have screened baggage for explosives.
    In fact, if I were a suicidal terrorist, I would be 
thrilled to know that my bag was on board the plane and not 
some other plane or sitting in the airport and exploding 
harmlessly or only killing a few people. So why do we think 
there is any utility in this anymore?
    I guess maybe there might be a few non-suicidal terrorists 
out there. But it really just does not seem to me to be a 
substitute for some harder form of screening of baggage 
anymore. It just really does not make a lot of sense.
    Mr. McHale. We are moving away from using bag match. We 
have been moving away for some time. We do not use it very 
much. We are trying to phase it down.
    Although I think it always should be a tool in the quiver. 
Even if it is not a substitute, it is probably something we are 
always going to be requiring at som some level.
    Of course, it is currently an alternate measure recognized 
by law. But it is one that we are moving away from.
    Mr. DeFazio. I just question the wisdom of that. And I 
would assume that you, as the security experts, would be--and 
it sounds like you are moving away from it, which I am happy to 
hear.
    Mr. McHale. Right.
    Mr. DeFazio. Then the last question would be on the air 
side. I understand I am going to get a briefing tomorrow on 
vendor employees and their access to the secure areas in the 
terminal. And I will be pleased to have that finally and 
understand where we are moving, because I think that is an 
extraordinary loophole, with those tens of thousands of people 
per day going into secure areas with no screening whatsoever.
    But beyond that, what about the air side? Are we moving 
beyond the cursory background checks?
    The last testimony we had a couple of months ago, we were 
not even requiring enhanced background checks of people who 
have access on the air side--caterers, cleaners, mechanics, 
others on that side.
    Mr. McHale. Well, we are moving forward with our plan for 
enhanced background checks and we will be doing that. We have 
done some, and we will continue. We will get them all through.
    Mr. DeFazio. When do you think we will have them all done?
    Mr. McHale. Congressman, actually I do not know that figure 
off the top of my head. But I will be happy to get it for you. 
I do not think it is all that long, but I will be happy to get 
it back to you.
    We are not at this time planning to significantly increase 
the amount of physical screening done for people entering the 
site. We will be obviously screening them as they pass into the 
sterile area, through the checkpoints. That will be the 
briefing you will have tomorrow; you will have some information 
about that.
    Again, this is really something of a philosophical issue. 
The people who work on the site have access to such tools, 
weapons, chemicals, things that can be used as weapons, and 
other things, that screening them is almost pointless.
    Mr. DeFazio. With all due respect, my time is going to 
expire, I have heard that argument before. I do not think that 
a primitive weapon fashioned from fuel or other things that are 
available, I would hope that we do not have blocks of C-4 or 
sheets of C-4 laying around the airport--I do not know what 
purpose it would serve--or sophisticated detonators laying 
around the airport that are based on altimeters.
    I have heard the argument before that, boy, there are a lot 
of dangerous things there. But those go more to the idea of 
someone trying to take over a plane fashioning some sort of 
weapon or that, but not to the catastrophic loss of a plane 
with an explosive device. And that is really where I am focused 
here.
    We all have different opinions. But I think that when we 
look at a repeat of opinions, the most likely thing is they are 
just going to take them down.
    They do not need to take them over and use them as weapons. 
They can just totally disrupt air travel by just taking them 
down. They tried that before over the Pacific, Ramzi Jusef.
    They repeat patterns. They came back to the World Trade 
Center. I think they will come back.
    Is it suicidal belts that people wear on the planes? Is it 
checked bags? Is it cargo, as Mr. Markey talked about? We do 
not know. But we need to be defending against all those things.
    And I am not really that worried about people fashioning 
bombs using fuel at the airport. I just do not agree with that 
argument, that they have access to the same things that the 
terrorists have access to.
    Mr. Camp. Thank you.
    The gentlewoman from Washington State may inquire.
    Ms. Dunn. Thank you very much, Mr. Chairman.
    Mr. McHale, we are delighted that you can be here today. We 
just had some recent activity, as you well know, at Seatac 
Airport. And I simply want to thank you for keeping such close 
watch over the management problems there in that airport.
    And I know that today you cannot talk about the details of 
that whole situation. But we were informed well ahead of time 
by Admiral Stone. We appreciated that kind of communication 
because that positioned us well to discuss the topic when it 
did come up, which it always does. And we always get the press 
calls.
    But I think also what you have done in replacing the top 
four managers will do a lot toward heightening the morale among 
the workers who are there. So I wanted to let you know that.
    Mr. McHale. Thank you.
    Ms. Dunn. This committee has focused a significant amount 
of time and energy to make sure that department-wide we are 
breaking down the legacy agency mentality and moving toward a 
forward-thinking department with a new mission. We are 
committed to supporting the department as it fills the 
communication gaps that led to the tragedy on 9/11.
    When it comes to communicating with the private sector 
about specific threats on transportation security, what 
responsibility does TSA have compared to the IAIP wing of the 
Department of Homeland Security or compared to any other 
federal agencies?
    Mr. McHale. TSA works very closely with our stakeholders. 
In the aviation area, we have principal security inspectors 
assigned to every carrier.
    At almost every major carrier, they have a corporate 
security officer who has a security clearance, with whom our 
transportation security intelligence service can share 
classified information. We talk back and forth with them all 
the time.
    In the other modes, we work very closely with the 
information sharing and analysis centers, some of the trade 
associations in the railroads, the railroad industry, the 
companies themselves and others, to get out threat information 
that is tailored to their threats.
    IAIP tends to look at the national level. And it gives 
national level threat guidance.
    I think one of the innovations they have developed is 
getting out some very practical kinds of things that industry 
or people should do to respond to the threat. We take that kind 
of guidance and try to tailor it to the specific industry or 
the specific transportation mode that we are dealing with, to 
give some practical guidance.
    Sometimes, it is pretty hard to give practical guidance to 
deal with a threat, but that is what we look to do.
    Ms. Dunn. What about, who would Sound Transit call on the 
phone if they heard of a vulnerability or a threat? Whom would 
they specifically--this is our local authority there in the 
Puget Sound area that deals with transit?
    Mr. McHale. Last year we started up the Transportation 
Security Operations Center, TSOC, out in Herndon. That is a 
one-stop shop basically, to get any information out, and we 
take it upon ourselves to get it around to the rest of the 
government.
    Sometimes though, the transit authorities in particular are 
very used to dealing with the Federal Transit Administration. 
The DOT has its own crisis response center that we are actually 
hooked into as well.
    We recognize that news--bad news--can come in to a lot of 
different places. What we are trying to do today, throughout 
the government, is make sure that whoever gets information 
spreads it around very quickly and gets it to everybody.
    Ms. Dunn. I understand that TSA is currently developing a 
registered traveler pilot program.
    Mr. McHale. Right.
    Ms. Dunn. And you are going to be testing it out this 
summer. Can you give us an update on that program? And if 
somebody is enlisted in that program, do they still have to be 
evaluated by CAPPS 2?
    Mr. McHale. No, they will not go through the CAPPS system. 
They will not be a selectee under the CAPPS system.
    It will be piloted later this summer. We expect it to run 
about 90 days at a few airports around the country, probably 
with most of the carriers in those airports; maybe not all the 
carriers, depending on how it works out.
    We hope to learn a lot from that plot. The idea of that 
program is to gather enough information about someone so that 
we do not need to use the CAPPS system to make a determination 
on them. Then they would not be a CAPPS selectee.
    They would have to go through the basic security, and if 
they alarmed, then they would be subject to secondary security.
    Ms. Dunn. Thank you.
    As you know, Seatac is currently undergoing an extensive 
expansion. They started this expansion before 9/11. The airport 
is continuing the efforts.
    While reaching compliance with TSA regulations, I have 
heard concern about whether there is inadequate space for the 
exit kiosks in certain terminals at Seatac and at other 
airports that we visited as a committee on our forays out into 
the country.
    What sort of coordination is going on between your agency 
and the U.S. visit program?
    Mr. Camp. Time has expired. Please answer, Mr. McHale.
    Mr. McHale. Thank you, Mr. Chairman. Quite a lot of work 
has been done.
    In fact, U.S. VISIT has been riding on several of our 
contracts. We provide contracts that support the U.S. VISIT. 
And we have been looking at the exit side of it.
    We do not do too much on the entrance side of it. But on 
the exit side of it, we have been working very closely with 
U.S. VISIT.
    Some of the plans for the exit side involve TSA directly, 
and some of them will involve us indirectly.
    But we are pretty well integrated. We are on their advisory 
committee, and we meet with them frequently.
    Mr. Camp. Thank you. The ranking member of the full 
committee, the gentleman from Texas, is recognized for five 
minutes.
    Mr. Turner. Thank you, Mr. Chairman. I have three 
questions.
    One: why have we not required the planes that overfly the 
United States to also harden their cockpit doors, as we have 
other planes?
    Mr. McHale. There is an ICAO requirement that kicks in 
fairly shortly, if it has not already. For all aircraft flying 
in international space, the International Civil Aviation 
Organization has a requirement to do that. I will be happy to 
let you know exactly when that is going to be in place.
    Mr. Turner. Okay, thank you. You mentioned to Congressman 
Markey that quite a lot of cargo that travels on passenger 
planes is being screened. Does this mean, when you say ``quite 
a lot'' that is being screened, does that mean that there is 
some that you are physically inspecting with the x-ray and 
following up with the swab for explosives if something is 
revealed? There is quite a lot of that going on?
    Mr. McHale. We are using dogs. We are using ETD when it is 
available. We do trace detection when it is available.
    We sometimes run some of the packages through the bigger 
explosives detection machines. And there is some physical 
inspection.
    Mr. Turner. Can you clarify what ``quite a lot'' means? 
Does that mean five percent or 95 percent?
    Mr. McHale. There is a percentage that is a random 
requirement. That percentage is sensitive security information. 
I would be happy to provide that to you off the record.
    Mr. Turner. What would it take to screen 100 percent?
    Mr. McHale. It would take new technology. It would take 
machines with bigger throats to be able to take odd shaped 
packages, long packages, large packages, large containers, to 
move it through.
    The technology that we have today would be very, very slow, 
and ineffective and inefficient in doing that. In fact, for 
some kinds of packages, the technology just does not exist. You 
would have to literally unpack and pack the cargo to do it.
    Mr. Turner. And how long will it be before that technology 
is available?
    Mr. McHale. We are making progress. The department's 
Science and Technology Directorate has some ongoing basic 
research on that. We have some ideas about how to do that.
    I do not know when we will get to 100 percent. We will get 
to technology that increases the percentage we can do as we go 
forward. It will depend on some developments.
    Mr. Turner. So would you say to this committee that you are 
screening every piece of cargo that travels on passenger planes 
that technologically can be screened today?
    Mr. McHale. No, I would not say that. We use the known 
shipper program. We do not screen every single piece of cargo 
that could be screened today by technology.
    Mr. Turner. So you really rely a lot on this known shipper 
program?
    Mr. McHale. Yes, we do. That is why we are working so hard 
to improve it.
    Mr. Turner. And that is the program that does not verified 
that known shippers are actually doing anything to carry out 
the regulations that are supposed to be carried out if you are 
designated as a known shipper?
    Mr. McHale. Well, we do audit them. We do not audit a very 
large number of them. That is why we are hiring a bunch more 
cargo inspectors this year, to get out there and do better 
audits.
    Mr. Turner. Do cargo inspectors have to come under this 
45,000 cap?
    Mr. McHale. No.
    Mr. Turner. Okay. One final question, if my time has not 
expired. I notice there are no funds requested in your budget 
request for grants to rail or other transit authorities for 
security. And we all know, particularly in light of the Madrid 
bombing, that rail is a significant vulnerability.
    Why is it that the department did not request in your 
budget any funds for these types of grants?
    Mr. McHale. Almost all of the grant programs are being 
consolidated within the Office of Domestic Programs for next 
fiscal year, which is part of the Department. They are being 
moved out of TSA. Some of the maritime grants will be moved out 
of Coast Guard.
    There are grants in programs like the Urban Area Security 
Initiative and other programs that are available to be used to 
states and locals. They will be available to use for transit 
security and other kinds of developments.
    Mr. Turner. You know the estimates range as high as $2.5 
billion in terms of the needs of rail and transit for security 
measures?
    Mr. McHale. Yes.
    Mr. Turner. And even though you are consolidating and this 
committee--in fact, has recommended some consolidation--it 
seems that in this year's budget, you should have made some 
request to acknowledge the need that is there. And to be 
totally silent while we are asking for funds for a whole lot of 
other things and to not mention rail seems to have been a 
serious oversight.
    Mr. McHale. I think if you look at the budget as a whole, 
there will be funding. The rail industry particularly on the 
freight rail groups, has really done a tremendous amount, even 
starting right at 9/11. They are very advanced in their 
thinking on this.
    Amtrak has received funding over the past few years and 
continues to get funding separately. If you look at all the 
different pieces, there is funding out there. But there is no 
funding in the TSA budget.
    Mr. Turner. Thank you.
    Mr. Camp. Thank you.
    The gentlewoman from the Virgin Islands, Ms. Christensen, 
may inquire for five minutes.
    Mrs. Christensen. Thank you, Mr. Chairman. And thank you 
for allowing me to sit in on the subcommittee.
    Welcome. You have a great group of workers in the Virgin 
Islands.
    Mr. McHale. Thank you.
    Mrs. Christensen. I cannot speak for every other airport. 
But I know ours are really--.
    Mr. McHale. I have not gone down there to see them yet. I 
should.
    Mrs. Christensen. Very good. But sometimes, they are really 
stressed when we have a large number of passengers coming 
through, especially on the island of St. Croix, where we have 
no machine.
    Now I understand we are supposed to have 100 percent of 
luggage screened electronically hopefully by the end of the 
year. We may be a little delayed on that.
    So even though my airport in St. Croix is a small airport, 
can I anticipate that I am going to have one of those machines 
that would screen electronically in my airport?
    Mr. McHale. I will have to look at the specific situation 
in St. Croix. There are two types of machines that we use. One 
is a trace detection machine. The other are the much larger EDS 
machines. And it sounds like you are referring to one of the 
EDS machines.
    Mrs. Christensen. EDS machine.
    Mr. McHale. I will have to look at St. Croix.
    Mrs. Christensen. It is really hard on them when you have 
long lines. People actually miss flights. And they have to go 
through the luggage by hand. And there are long lines of people 
waiting.
    And they really do a good job. And they do a thorough job. 
But it is very, very difficult.
    So I am hoping that--.
    Mr. McHale. We are making some progress. As we are getting 
more and more of the larger, inline systems at the larger 
airports, we are able actually to roll down some of the 
machines that are then made redundant at those airports and 
move them into smaller airports.
    Unfortunately, I do not know the situation in St. Croix. 
But I will be happy to take a look at it.
    Mrs. Christensen. Right, right. Because you know, the 
chances of missing something becomes much greater. And I do not 
want that to happen at my airport.
    When you are doing the studies between the private 
contractors and the TSA federal employees, are you comparing 
alternate methods, as well as the electronic? Is it structured 
so that you are comparing the checking by alternate method by 
alternate method?
    Mr. McHale. Between the private contractors and the federal 
contractors?
    Mrs. Christensen. Yeah.
    Mr. McHale. We are comparing the overall security. We are 
comparing all their operations as screeners, whether it is the 
baggage or the passenger checkpoints. We are looking at each of 
the operations that they do as we compare them.
    And as we said, we have basically found them to be 
comparable. We train them to the same standards, and we 
supervise them very closely.
    Mrs. Christensen. Right. We went through an awful lot of 
discussion. And after September 11, we felt that it was really 
important to make the screening a federal responsibility.
    Can you help me to understand the thinking--and I realize 
we left it open, that we could come back and look at private 
screeners. A lot of people in my district and I am sure across 
the country were displaced and could not be rehired by TSA.
    Now we are going to go back. Could you give me some of the 
thinking that went on to now? I mean, the system is working 
just as well.
    Mr. McHale. The pilot program that we just completed is one 
that was mandated by Congress to do. We had to do the five 
airports in five different categories, but the screeners were 
required to meet exactly the same standards.
    They too had to be U.S. citizens, English speakers, able to 
pass the observation and discernment test, communications 
skills, and all those sorts of things. They also had to meet 
the same training standards. They had to get the same pay and 
benefits or equivalent pay and benefits, I think is the 
language in the statute.
    So there were a variety of things that really, within the 
statute, said that we were going after essentially the same 
population of people, whether they were federal or private. In 
fact, the private screeners, screening companies, ended up 
hiring about the same relatively small percentage of pre-9/11 
screeners as we did in the federal workforce because they had 
the same requirements for the same standards.
    Mrs. Christensen. Do I understand that under the LOIs that 
the match is changing from 90 to 75? If so, is that to try to 
reach more airports?
    And do you think that there are airports that, if you 
change the match--somewhere I read that--and if that match is 
being changed, do you think the airports are going to be able 
to meet the requirements under this new match that we require 
them to contribute more?
    Mr. McHale. The program, when it started, was at a 75 
percent match. And then in the Vision 100 Act, passed last year 
by the Congress, there was language which authorized the 
creation of a fund. And part of that language changed the match 
to 90 percent.
    To the extent we have issued LOIs so far, they have been 
issued at the 75 percent level. We are concerned that it will 
strain the the available funding at the 90 percent level.
    The administration has proposed in its budget to roll that 
back to 75 percent.
    As to whether airports will be able to make it, to meet it, 
I think the answer is: some will. Some have already. There will 
be difficulties at other airports.
    At smaller airports and small to medium-sized airports 
typically we are not looking at LOIs. We fund those a little 
differently through programs that we can give direct funding 
to.
    Mr. Camp. All right.
    Thank you. The gentlewoman's time has expired.
    I want to thank you for your testimony here today, Mr. 
McHale. I also want to acknowledge and welcome to the committee 
room your new director of legislative affairs, who many of us 
know very well. And glad he could be here as well.
    Thank you for your testimony. This hearing is now 
adjourned.
    [Whereupon, at 12:00 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


                 Questions and Responses for the Record

             Questions Submitted by the Honorable Dave Camp

    1. Recently, several reports from the DHS/OIG, GAO, and 
BearingPoint (under contract to TSA) identified a number of compelling 
challenges facing TSA's screener program, including ongoing performance 
problems. What are the root causes of screener performance deficiencies 
noted by these groups? How much is attributable to technology, how much 
is attributable to training, and bow [sic] much is attributable to 
other human factors causes (e.g. supervision, fatigue)? What does TSA 
plan to do in response to these reports' findings? Please explain TSA's 
response plan, with implementation timelines.
    Answer: The GAO and OIG reports both indicate that TSA has made 
significant progress in providing enhanced training tools to the 
screener workforce in order to improve threat object detection 
performance. In July 2003, TSA completed a comprehensive Passenger 
Screening Performance Improvement Study using the tools, strategies and 
techniques associated with performance analysis. The study team 
validated desired screener performance, examined screening practices, 
and determined factors that influence the gap between these two states. 
Using this systemic process, TSA evaluated the nature of the screening 
work tasks, the screening workplace environment in which the tasks are 
performed, and the screeners'--performance. The outcome of this 
performance analysis included a list of systemic root causes and a set 
of recommended solutions linked to those causes. Although the solutions 
encompass the areas of technology, training, and human factors, TSA did 
not quantify the percentage of overall performance gap attributable to 
these areas but instead determined which among all the categories 
needed priority attention.
    In October 2003, to address passenger screening performance 
deficiencies identified in the Screening Performance Improvement Study, 
TSA developed a ``Short-Term Screening Performance Improvement Plan.'' 
This plan included eight broad initiatives and 62 specific actions that 
TSA planned to pursue to provide tangible improvements in screening 
performance and security. On June 7, 2004, TSA reported to the 
Chairman, Subcommittee on Homeland Security, Committee on 
Appropriations, U.S. House of Representatives, the completion of 57 of 
these actions. One action, is still in progress and is expected to be 
completed in the first quarter of fiscal year 2005. The remaining two 
actions have been deferred pending identification of appropriate 
resources.

    2. Given the upcoming deadline to provide an ``opt out'' process 
for airports to use private screeners, what action has TSA taken to 
develop an application and review process? Where is this process 
represented in the FY05 budget?
    Answer: ATSA provides that airport operators may submit 
applications on or after November 19, 2004 to TSA to have the screening 
of passengers and property be carried out by qualified private 
screening companies. On June 23, 2004, TSA released its guidance 
setting forth the general parameters of the Screening Partnership 
Program (SPP) under which TSA will receive and review applications from 
airports to opt out of Federal screening and select contractors to 
provide contract screening services in opt out airports. While the 
guidance does not address every question relating to the Screening 
Partnership Program, TSA is continuing to define the program. For 
example, TSA is crafting an application template for distribution at 
the appropriate time.
    In terms of funding for the SPP, TSA's approach is to fund Opt Out 
screening operations from the same budget line item as screening 
operations performed by TSA screeners. In this manner, Federal 
screeners and private screeners will be funded from the same pool of 
money. Costs for contracts with companies providing screening services 
in SPP airports will be funded by the cost of the Federal operations 
that are being displaced. Funding SPP in this manner is necessary 
because providing a specific program budget for SPP airports, which 
necessarily depends on the number and size of airports that will be 
approved to opt out, is not possible at this time.

    3. What cooperation did you receive from the aviation and travel 
industry in developing the Registered Traveler Program? How is or can 
this program be coordinated with expedited pre-clearance programs run 
by CBP, such as Air Nexus?
    Answer: Cooperation with the aviation and travel industry in the 
development of the Registered Traveler program has been extensive. 
During the concept development phase, TSA adopted an aggressive 
outreach program with both industries to ensure key stakeholder input 
was available. TSA met with representatives of major airlines and 
travel associations to exchange ideas on the operational aspects of the 
program and to identify the potential benefits. Key partnerships were 
established with the 5 airports participating in the pilots 
(Minneapolis-Saint Paul, Los Angeles, Houston Bush, Boston Logan and 
Reagan National), as well as the participating airlines (Northwest, 
United, Continental, and American) to ensure effective coordination and 
service to passengers volunteering to participate in the Registered 
Traveler pilots. TSA also met with the National Business Travel 
Association and the Association of Corporate Travel Executives. We 
anticipate that additional meetings and briefings will continue with 
stakeholders and associations within the aviation and travel industries 
while the pilots are operating.
    TSA continues to communicate and coordinate with other expedited 
pre-clearance programs, such as Air Nexus. TSA has met with the Air 
Nexus staff to share ideas and lessons learned and to examine potential 
synergies. TSA arranged for Air Nexus staff to visit and observe the 
pilot currently being conducted at Minneapolis-Saint Paul. We 
anticipate this communication and cooperation will continue into the 
future.

    4. Department of Homeland Security (DHS) Undersecretary for Border 
and Transportation Security Asa Hutchinson said (in a Senate Committee 
on Commerce, Science, and Transportation hearing on March 23, 2004), in 
response to a question about signing Memoranda of Understanding with 
DOT outlining responsibilities for transportation security, that such 
agreements were unnecessary in light of Presidential Decision Directive 
#7 (signed on December 17, 2003) on critical infrastructure protection. 
However, this directive does not delineate responsibilities between the 
TSA and DOT; it says that DOT and DHS `gill collaborate on all matters 
relating to transportation security and transportation infrastructure 
protection''
    The GAO argues that without a clear division of responsibilities 
between TSA and the DOT modal administrations, there can be 
``duplication, confusion, and gaps in preparedness.'' Moreover, an 
agreement delineating responsibilities would make each organization 
accountable for its responsibilities, and would make the separate roles 
and responsibilities of each organization clear to transportation 
security stakeholders.
    Why has TSA chosen not to sign Memoranda of Understanding with the 
Federal Transportation Administration (FTA), which is within DOT, as it 
did with the FAA to delineate areas of responsibility and 
accountability? How would clarifying the relationship be helpful for 
coordinating transportation security?
    Answer: Homeland Security Presidential Directive (HSPD)--7, sets 
forth the establishment of ``a national policy for Federal departments 
and agencies to identify and prioritize United States critical 
infrastructure and key resources and to protect them from terrorist 
attack.'' The directive instructs DHS and DOT to collaborate on 
transportation security and transportation infrastructure protection, 
and it directs DHS to take the lead role in coordinating protection 
activities for transportation systems, including mass transit, 
aviation, maritime, ground/surface, rail, and pipeline systems.
    Additionally, DHS and DOT have finalized a Memorandum of 
Understanding (MOU). Through the procedures agreed upon in the MOU, DHS 
and DOT will work together to achieve effective public transportation 
strategies and initiatives and develop appropriate funding plans.
    DHS has assigned TSA primary Sector Specific Responsibility for the 
Transportation Sector in implementing HSPD-7. In accordance with DHS's 
implementation plan and in partnership with other federal stakeholders, 
TSA is coordinating the development of the Transportation Sector 
Specific Plan (TSSP) and is working under DHS guidance and with 
partners in the U.S. Coast Guard and the DOT. The TSSP will discuss how 
Federal and private-sector stakeholders will communicate and work 
together; how critical assets in the transportation sector will be 
identified, assessed, and prioritized; how protective programs will be 
developed; how progress in reducing risk will be measured; and how R&D 
will be prioritized in the sector. In the Transportation Sector, the 
SSP will help ensure that efforts are systematic, complete, and 
consistent with the efforts in the other 16 critical infrastructure and 
key resources sectors. DHS will build on the foundation of the SSP to 
develop the Transportation Security Operational Plan (TSOP) that will 
provide overall operational planning guidance on rail and other modal 
security. The TSOP will ensure that modal security plans are integrated 
into an effective concept of operations for management of security of 
that sector of transportation.
    DHS and DOT's Modal Administrations are currently meeting to 
discuss roles and responsibilities and are cooperating on many issues 
of mutual interest, especially on the development of the Transportation 
SSP and modal security plans under the guidance of HSPD-7. We believe 
this ``family of plans'' will provide clarity to all parties on roles 
and responsibilities in transportation security.

               Questions by the Honorable Christopher Cox

    1. At a March 2004 appropriations subcommittee hearing, you 
testified that TSA was employing a ``system of systems'' approach to 
enhance aviation security, including improving screener performance, 
deploying technology, and strengthening oversight and accountability. 
Please explain the specific steps being taken in implementing this 
systems approach, including timelines for completion and provisions for 
review/evaluation and improvement. This is especially important because 
TSA appears to have a large portfolio of issues to address and is 
taking a number of actions without an apparent proactive overall plan.
    Answer: TSA's security strategy uses a ``system of systems?'' 
approach whereby each security ring contributes to TSA's overall 
security system but the overall system does not rely exclusively on any 
one component. These systems includes screening of passengers and their 
checked and carry-on baggage, the display of valid, government-issued 
photo identification, Federal Air Marshals, Federal Flight Deck 
Officers, hardened cockpit doors, and other enhanced security 
practices. Each security measure is designed to complement the 
efficiency and effectiveness of the others. The result is a system of 
enhanced security systems designed to provide a layered security that 
addresses a continuum of security threats with minimal impact on 
airline customers and operations, and on the free flow of commerce 
through the nation's commercial aviation infrastructure.
    TSA has established four strategic goals aligned with DHS goals: 
domain awareness; prevention/protection; response/restoration; and 
organizational effectiveness. TSA continuously gathers as much 
knowledge as possible about the threats, vulnerabilities, capabilities, 
status, trends, unusual circumstances, and other conditions of the 
transportation system and its environment. We use this knowledge to 
direct resources and protective action most effectively.
    We continue to meet the challenge of preventing terrorist attacks 
through a multilayered detection, deterrence and response system. We 
work collaboratively with intelligence and law enforcement agencies to 
monitor, disrupt and pre-empt emerging terrorist threats, and through 
our layered security systems, prevent terrorist attacks and incidents. 
We have developed plans to coordinate a rapid and effective response to 
any attack on, or disruption to, the air transportation system. We also 
provide expertise to assist in the development of plans for incident 
management, contingencies, and organizational continuity, such as the 
National Response Plan (NRP) and the National Incident Management 
System (NIMS).
    To ensure and improve our organizational effectiveness across the 
board, we have established performance planning and reporting 
mechanisms, and we continue to use these systems to collect data to 
monitor our progress toward achieving our goals. Our Performance 
Measurement Information System (PMIS) was developed to capture basic 
performance measures at U.S. airports on a daily basis and is 
continually being upgraded to support new capabilities. We capture and 
analyze data on our security operations and adjust operations to 
achieve desired performance goals. Random and routine inspections, plus 
program evaluations, are also conducted to supplement the information 
captured in PMIS.
    To measure effectiveness, TSA's Office of Internal Affairs and 
Program Review (OIAPR) has been conducting covert testing continuously 
since September 2002 to identify vulnerabilities in airport security 
systems. OIAPR has conducted thousands of checkpoint, checked baggage, 
access control and other tests of airport security systems. OIAPR 
conducts post test reviews with the screeners, screener supervisors, 
and Federal Security Directors (FSD) to re-enact the test and to 
identify opportunities for improvement. The information OIAPR provides 
to TSA management is used to focus attention on critical areas needing 
performance enhancements.
    FSDs and their staff routinely monitor passenger and baggage 
screening activities to ensure that the screener workforce is complying 
with TSA standard operating procedures and policy directives at U.S. 
airports. Regulated parties are also monitored and inspected for 
compliance with pertinent security regulations and measures. Similar 
monitoring takes place overseas to ensure that airlines and host 
government authorities also maintain a high level of effectiveness in 
their screening operations and application of security controls for 
flights to the United States.
    Terrorism is thwarted by efforts to raise or adjust the security 
threshold and create uncertainties in terrorists' planning efforts. 
Accordingly, TSA takes a risk-based approach to provide effective 
aviation security. This is accomplished by analyzing the threats along 
various pathways of attack and vulnerabilities to those methods of 
attack, as revealed by comprehensive and continuous threat and 
vulnerability analyses of security systems.

    By necessity, upon its creation, TSA focused its security efforts 
almost exclusively on the commercial aviation sector. Since then, it 
has been criticized for not paying sufficient attention to other modes 
of transport, such as rail, maritime, and surface, especially in light 
of recent attacks on such modes (e.g., Madrid). What steps is TSA 
taking to protect other modes of transport, especially in terms of the 
aforementioned ``systems'' approach?
    Answer: In partnership with other DHS component agencies and the 
Department of Transportation (DOT) modal administrations, TSA is 
identifying security vulnerabilities in the non-aviation modes of 
transportation. This security information will be used in developing 
and implementing, as appropriate, national performance-based security 
standards to improve the security of passengers, cargo, conveyances, 
transportation facilities and infrastructure. TSA is also working 
closely with federal, state, local, and industry partners to ensure 
compliance with established regulations and policies.
    Specific projects TSA is undertaking or that are under discussion 
include:
        <bullet> Partnering with Information Analysis & Infrastructure 
        Protection directorate (IAIP) and industry stakeholders to 
        leverage Information Sharing Analysis Centers effectively;
        <bullet> Assessing hazardous materials (HAZMAT) transport 
        security threats and identifying best practices and mitigation 
        strategies to secure HAZMAT transport through High Threat Urban 
        Areas (HTUA). Specifically, DHS and DOT joined in a 
        collaborative effort to address security issues surrounding the 
        movement of bulk HAZMAT by rail through the National Capital 
        Region (NCR). TSA, designated as the lead Federal agency in 
        these efforts by DHS, developed a pilot project centered in 
        Washington, D.C.--known as the D.C. Rail Corridor Project. TSA 
        performed a fact-based, risk-analysis approach to understand 
        vulnerabilities, hazards, and the ``as is conditions'', and--
        based on the facts and analysis--IAIP developed mitigation 
        strategies to identify threats associated with the movement of 
        bulk HAZMAT that occur within the physical boundaries of the 
        beltway--about 42 miles of railroad track and related assets. 
        Some of those enhancements were implemented immediately, and 
        others will be implemented overtime. The willingness of the 
        diverse parties involved to come together for the D.C. Rail 
        Corridor Project has been extraordinary. In a multi-
        disciplinary, multi-agency approach, our partners in this 
        effort reflect the complex relationships, roles, and 
        responsibilities that exist within the NCR.
        <bullet> Working with the Science and Technology directorate to 
        develop chemical, biological, and radiological countermeasures 
        for identifying, isolating, and defeating attacks in mass 
        transit settings;
        <bullet> Assessing the operational feasibility and 
        appropriateness of applying tailored screening standards to 
        passengers in non-aviation environments;
        <bullet> Working under the guidance of the Border and 
        Transportation Security Directorate, and with U.S. Customs and 
        Border Protection (CBP) and the USCG to develop the appropriate 
        framework for securing the intermodal transport of 
        containerized cargo in the domestic United States.
        <bullet> Working with DOT, USCG and public/private 
        transportation owners and operators on transportation security 
        planning efforts that are an important part of DHS's overall 
        Critical Infrastructure Protection program.
    DHS announced the following initiatives for rail and mass transit:
        <bullet> Continued engagement with industry and State and local 
        authorities to establish base-line security measures based on 
        current industry best practices;
        <bullet> Transit and Rail Inspection Pilot (TRIP) to test the 
        feasibility of screening luggage and carry-on bags for 
        explosives at rail stations and aboard trains;
        <bullet> The integration of existing public and employee 
        awareness programs and the creation of new programs where 
        necessary;
        <bullet> Homeland Security Presidential Directive 7 (HSPD-7) 
        directed DHS to develop a comprehensive National Infrastructure 
        Protection Plan (NIPP) covering 17 sectors of the U.S. 
        economy's Critical Infrastructure and Key Resources, a process 
        that is being managed by DHS IAIP. For each sector, there is a 
        federal agency taking the lead in developing a Sector Specific 
        Plan (SSP) that will feed into the comprehensive National Plan. 
        In the Transportation Sector, TSA has worked closely with IAIP 
        to develop the Transportation Sector Specific Plan (TSSP). The 
        TSSP is a process-oriented document and provides a high-level 
        map for security in the Sector. TSA is now developing the 
        Transportation Security Operational Plan (T-SOP). The TSOP is 
        an operational-level extension of the TSSP, which will provide 
        much greater detail on Transportation Sector initiatives and 
        accompanying roles and responsibilities. The TSOP will consist 
        of two parts: a baseline plan that details all common elements 
        among the modes followed by mode-specific annexes, one of which 
        will include the rail sector.
        <bullet> Investment in the research and development of 
        technological innovations for biological, chemical and high 
        explosives countermeasures.

    2. Passenger and baggage screening is generally said, even by TSA, 
to be impractical for passenger rail systems, due to the openness of 
the system and the nature of their operations. Yet, TSA has undertaken 
test screening procedures in two rail stations, through a Transit and 
Rail Inspection Pilot program. Even if screening procedures that are 
devised for the pilot yield positive results, is it likely that such 
procedures would be transferable to stations where the rail systems 
vary significantly in design and passenger volume is much greater?
    Answer: TSA's goal in the Transit and Rail Inspection Pilot (TRIP) 
pilot has been to introduce emerging technologies to the rail 
environment, to evaluate their effectiveness at detecting explosive 
material, and to assess the impact that deployment of such technologies 
have on passenger travel. Unlike aviation facilities, rail stations are 
not self-contained and passengers have a great deal of freedom to board 
and disembark the train throughout its route. Because screening 
passengers in the open rail environment is very different from the 
controlled-environment of the aviation sector, the pilot focuses on 
testing the best means to adapt screening techniques for this 
environment. TSA and its partners recognize the distinct challenges 
presented by the rail environment and are conducting this pilot to 
identify the best methods to address them.
    On May 30, TSA completed Phase I of this pilot program in New 
Carrollton, Maryland. The purpose of this phase was to test equipment 
in the open environment of a rail station and see if it is feasible as 
a response option for mitigating a high threat situation.
    Between June 7 and July 5, Amtrak passengers boarding long-distance 
trains at Washington, D.C.'s Union Station had their checked luggage 
screened for explosives, as part of Phase II of the TRIP program. The 
goal of Phase II was to evaluate emerging technologies in a rail 
environment to screen for explosives in checked and unclaimed baggage, 
as well as temporarily stored personal items and cargo.
    The Phase III pilot was designed to determine the operational 
suitability of installing screening technology in passenger rail cars 
to screen passengers and/or their carry-on baggage. Phase III began on 
July 19, 2004 and ran until August 20, 2004 and examined potential 
issues surrounding the development of a screening model for Amtrak and/
or a commuter rail systems. Phase III was conducted in conjunction with 
Connecticut's Shoreline East commuter rail system. Screening was 
conducted in a specialized railcar equipped with on-board screening 
technology as the train was in motion. TSA tested technologies to 
screen passengers and their baggage for explosives while the train car 
is in motion.
    All three phases of the pilot have been completed. Results are 
being assessed and will be presented to the Department when ready.

    3. In recent testimony, TSA officials have indicated that the 
agency is ``right-sizing'' screening operations to a mix of no more 
than 45,000 full-time and part-time FTEs. How was this number 
developed, especially in light of the findings in the recent reports on 
screener performance that concluded that such performance was impacted 
in part because of staff shortages at certain airports? Does the right-
sizing drill-down to the airport level, where the level of screening 
personnel is a function of, among other things, the airport's risk, its 
workload, and infrastructure configuration?
    Answer: TSA is developing a detailed bottom-up staffing model that 
takes into account several factors to determine an adequate level of 
screening personnel necessary to meet our mission. This model uses 
airport flight information, airport hours of operation, baggage 
screening areas, checkpoint lanes, types of screener equipment, 
screener Standard Operating Procedures, passenger load factors and 
arrival curves, projected administrative time, and other operating 
criteria.
    TSA reviews the workforce requirements for each airport on a 
periodic basis. The model, once operational, will be an important asset 
in TSA's efforts to ensure that our screeners are deployed effectively 
to maximize the safety and security of the traveling public. This 
analysis will also allow us to engage in further discussions with the 
relevant Committees of Congress.
    TSA is also creating additional capacity through achieving greater 
efficiencies in the scheduling of screeners. Federal Security Directors 
at each airport now have access to scheduling tools that provide real-
time information enabling them to forecast periods of peak demand for 
screening. TSA uses mores split shifts and has restructured the 
workforce to reach a higher ratio of part-time screeners to maximize 
operational flexibility. As a result of this restructuring, TSA can 
more efficiently schedule screeners to match capacity with the level of 
demand.

    4. How does TSA propose to gather and analyze relevant data to 
calculate its performance indicators? For example, what processes and 
controls will be put in place that will allow TSA to gather the data, 
ensure its relevance and quality, and ``crunched?'' How will these 
indicators collectively present TSA with a picture of its performance 
and trends in this performance?
    Answer: TSA has been collecting and analyzing performance data for 
over two years from a variety of sources. The backbone of the TSA 
performance measurement and indicators structure is the Performance 
Measurement Information System (PMIS), which collects data from all 
federalized commercial airports as well as from the five airports that 
are under private screening contracts. Source data include screener 
employee census data, payroll, passenger throughput, passenger wait 
times by screening checkpoint, items confiscated, and machine 
performance, among other data. Additionally, PMIS contains sizing 
information on airports, checkpoints, lanes, and machines that produce 
a number of standard and ad hoc reports. In August 2004, TSA deployed 
the Performance Information Management System (PIMS), a business 
intelligence tool that allows greater ad hoc reporting using multiple 
TSA data collection systems, including PMIS and the Performance and 
Results Information System (PARIS), used to collect data on incidents, 
inspections and investigations at the Nation's ports.
    The Threat Image Projection (TIP) systems embedded in x-ray 
machines at use in airports superimposes randomly selected threat 
images on x-ray screens during actual operations and records whether or 
not screeners identify the threat object. TSA combines the live covert 
testing results with the results from TIP automated testing for a more 
complete picture of TSA's effectiveness in aviation security screening 
operations. The results of these assessment processes are analyzed for 
trends and emerging vulnerabilities in order focus training plans on 
areas needing strengthening.
    TSA also uses surveys, listening sessions, and other mechanisms to 
receive quantitative and qualitative information from passengers and 
other customers, industry stakeholders, and employees. This outreach 
ensures that the performance measurements encompass all aspects of our 
business, including efficiency and customer satisfaction.

    5. At what percentage of airports are airport workers permitted to 
bypass screening checkpoints, relying upon identification cards for 
security checks? Are strategies being evaluated to increase the 
screening of airport workers?
    Answer: The Airport Security Plan (ASP) at each airport governs 
procedures for airport employees that require access to sterile and 
SIDA areas, including whether they are authorized to access the sterile 
and SIDA areas respectively upon presenting their SIDA or sterile area 
badges. Federal Security Directors must approve the ASPs for the 
airports that they oversee.
    TSA is actively strengthening safeguards regarding access to 
Security Identification Display Area (SIDA) and sterile areas of our 
Nation's airports. The sheer quantity of airport workers with SIDA 
credentials and the fact that they would have access to a wide variety 
of tools and equipment within the SIDA area preclude any simplistic 
solutions. TSA's security strategy uses a ``system of systems'' 
approach whereby each security ring contributes to TSA's overall 
security system but the overall system does not rely exclusively on any 
one component. In other words, the different security components 
complement and reinforce each other.
    TSA recently completed a review of the access for airport and 
airline workers to SIDA and sterile areas of airports and has 
significantly strengthened security policies. Details of the policies 
contain sensitive security information and can be shared in the 
appropriate manner.
    An extensive background investigation is necessary for one to be 
issued either a SIDA or Sterile Area badge. The background 
investigation consists of 3 parts: (1) an FBI fingerprint based 
criminal history records check (CHRC) with specific outstanding arrests 
or convictions resulting in disqualification, (2) a name-based check 
against the TSA No Fly and Selectee lists which provide links to 
potential terrorists, and (3) a name-based security threat assessment 
on all SIDA and Sterile area workers. The latter component is a new 
requirement recently enacted by TSA.
    TSA will continue to review security processes relating to access 
to sensitive areas of airports and identify further enhancements where 
appropriate. While no single measure will provide a 100% security 
guarantee, TSA's current procedures represent a significant set of 
mutually reinforcing safeguards when taken as a whole and are 
consistent with our layered security approach.

    6. Air cargo security has received increasing scrutiny as a 
potential ``soft'' target vulnerable to some sort of terrorist action, 
yet thus matter has not received sustained attention. TSA essentially 
relies on the Known Shipper Program to ensure the security of air cargo 
shipments-tender this program, cargo from unknown shippers is declined 
loading aboard aircraft. However, a number of terrorism experts and 
others note that such programs could be compromised by terrorists who 
might pose as legitimate businesses for a period of time, establish 
credibility, and then strike.
    What steps is TSA taking to secure air cargo, especially cargo that 
originates overseas; and what is the level of cooperation and 
coordination with U.S. Customs and Border Protection (CBP)?
    Answer: TSA, in coordination with CBP and the Border and 
Transportation Security Directorate, has taken numerous steps to 
strengthen air cargo security. In November, 2003, TSA issued revised 
security mandates requiring random inspection of air cargo transported 
on both all-cargo and passenger aircraft. In December, TSA adopted a 
comprehensive Air Cargo Security Strategic Plan (ACSSP), based on 
recommendations from the ASAC Air Cargo working group.\1\ Additionally, 
earlier this year, TSA deployed our Known Shipper Database which has 
centralized the collection of data on about 450,000 known shippers and 
enabled vetting against government databases. TSA's Known Shipper 
Database will be just one element of our planned Freight Assessment 
program which will be designed to identify high risk cargo that will be 
subjected to further inspection prior to transport by passenger 
aircraft.
---------------------------------------------------------------------------
    \1\ The Air Cargo Notice of Proposed Rulemaking (NPRM), which 
includes the ACSSP, was published in the Federal Register in November 
2004 and is one in a series of steps of steps toward codifying air 
cargo security measures first introduced to industry in the form of 
security directives and emergency amendments after the 9/11 attacks.
---------------------------------------------------------------------------
    CBP is an integral partner to TSA in the development and 
implementation of several important air cargo programs, including 
freight assessment. Currently TSA and CBP have four distinct working 
groups dedicated to the advancement of freight assessment components.

    7. CAPPS II has generated considerable controversy and, as detailed 
by a recent GAO report, faces a number of technical and operational 
challenges. What specific steps is TSA taking to respond to the 
challenges that GAO identified-TSA had not fully addressed seven of 
eight key issues, including accuracy of data, prevention of 
unauthorized access, and privacy concerns; and implement the 
recommendations it made?
    Answer: TSA concurred with the findings of the GAO report on CAPPS 
II when it was released. One of the primary reasons for the 
``weaknesses'' cited by GAO was the fact that, thus far, the Department 
has not been able to conduct any testing. DHS believes that once a 
reasonable amount of testing has been conducted, it will be in a far 
better position to address and resolve the concerns raised by the GAO 
report.
    After a review of airline passenger prescreening programs, and 
bearing in mind GAO's findings, the Transportation Security 
Administration (TSA) has developed a new program for screening domestic 
airline passengers in order to enhance the security and safety of 
domestic airline travel called Secure Flight.
    The Department has learned valuable lessons regarding passenger 
pre-screening and will be incorporating these lessons into Secure 
Flight. During the Secure Flight testing phase, TSA will:
        <bullet> Compare historic passenger name record (PNR) 
        information against expanded and consolidated watch lists held 
        in the Terrorist Screening Center database to identify known or 
        suspected terrorists.
        <bullet> TSA will also apply, within the Secure Flights system, 
        a streamlined version of the existing CAPPS rule set related to 
        suspicious indicators associated with travel behavior as 
        identified in passengers' itinerary-specific PNR.
    Additionally, on a very limited basis, TSA will also test the use 
of commercial data to determine if this approach is effective in 
identifying passenger information that is incorrect or inaccurate.
    Secure Flight will be continuously monitored to identify and delete 
factors that do not contribute to the effective and efficient 
assessment of terrorist risk. Additionally, the TSA Civil Rights and 
Privacy Offices, and when appropriate the DHS Office for Civil Rights 
and Civil Liberties and the DHS Privacy Office, will be involved in 
redress process for the new program. The full protection of privacy and 
civil liberties remains a core principle for any passenger pre-
screening system.

            Questions Submitted by the Honorable Lamar Smith

    My question pertains to the Transportation Worker Identification 
Program (TWIC):
    As you know, Congress overwhelmingly approved and appropriated the 
funds necessary to study, develop, test and deploy a credentialing 
program that contained biometric identification procedures to require 
that transportation workers be authenticated before gaming access to 
secure areas, facilities and networks. While Congress has been patient 
through the transition of the TSA from the Department of Transportation 
to the Department of Homeland Severity [sic] and the subsequent change 
of its leadership, the TWIC program has unfortunately floundered and 
has been unnecessarily delayed.

    Would you please update the Members of this Committee on the status 
of TWIC and the Department's plans and timeline to fully deploy this 
biometric identification card program to all transportation workers?
    Answer: In May 2002, DOT transitioned the lead for the TWIC project 
to TSA. In August 2002, additional Congressional guidance resulted in 
modification of the TWIC implementation planning and program timeline. 
An extensive Technology Phase was inserted into the plan prior to 
conducting an operational prototype. The Technology Phase evaluated the 
full range of credential-based technologies. The Technology Phase 
contract was released in April 2003, and the phase was completed in 
October 2003. The results of the Technology Phase confirmed that the 
most appropriate technology for the core TWIC requirements was the 
integrated circuit chip (ICC) smart card. Concurrent with Technology 
Evaluation, planning for the Prototype Phase occurred.
    At the completion of the Technology Phase, a review of the TWIC 
program occurred prior to commencement of the Prototype Phase. Based 
upon this review, the Request for Proposal for the TWIC Prototype Phase 
was approved for release in June 2004, and the contract was awarded in 
August 2004. The Prototype Phase is being conducted over a seven-month 
period. Upon its completion, the results will be reviewed, and a final 
decision is expected to be made in the 2nd quarter of FY05 with regards 
to national implementation.

    Please share with us the Department's plans to address the National 
policy issues surrounding the deployment of these cards including: 
which transportation workers will be issued a card and what is the plan 
for financing of the necessary infrastructure.
    Answer: TSA has announced plans in the Federal Register to commence 
the development of a rule making process that will provide more 
explicit guidance for specific populations that will use the TWIC to 
gain access to secure areas. Additionally, TSA is conducting the 
required planning and stakeholder outreach, including a detailed 
Privacy Impact Assessment.
    In accordance with Congressional guidance, TSA is developing a user 
fee-based funding strategy, and plans to transition to fully fee-based 
funding for TWIC in FY06.

            Questions Submitted by the Honorable Jim Turner

    Responses to the following questions have not been recieved.
    1. You testified that ``[a]t airport checkpoints, highly trained 
and qualified TSA personnel screen passengers and carry-on items, using 
state-of-the-art equipment.'' However, at a previous hearing before the 
House Government Reform Committee (November 20, 2003), you stated ``I 
agree with you completely that the technology we'e using is somewhat 
better than 9/11 but not a lot. It is the same type of technology. 
We've replaced all the metal detectors with the latest generation, but 
it is still the pre-9/11 x-ray and metal detection technology.'' Please 
provide the Committee with a description of the types of equipment 
needed and timeline for expected deployment of new products under 
Projects Phoenix and Manhattan II.

    2. Does DHS still intend to conduct a risk assessment for all cargo 
by the end of fiscal year 2005? If so, who will conduct the risk 
assessment, what information will that be based on, how and when will 
that information by provided to DHS, what will constitute a 
sufficiently high level of risk to trigger action, and what will that 
action be?

    3. You stated that one third of the known shippers are currently in 
TSA's database. How many companies do you ultimately expect to be in 
the database? What is TSA's policy for verifying that known shipper 
companies are complying with security regulations, both in terms of 
written and physical inspections?

    4. Please provide details on the background checks that are 
conducted for known shipper companies, airport workers in sterile and 
secure areas, and screeners. For each, please provide the number of 
checks that have been conducted, who conducts the checks, and what 
types and sources of information are included in the checks.

    5. You testified that TSA will minimum security training for flight 
attendants will be ``piloted later this fiscal year and be ready to 
deliver it next year.'' Can you provide a timeline and description of 
the training?
    6. How many airports currently rely on positive passenger--bag 
match as the only security measure on checked baggage? When will no 
baggage rely solely on the passenger--bag match as a security measure?

    7. You mentioned the exemplary work of the rail information sharing 
and analysis center (ISAC). Does TSA intend to create and use a similar 
structure for the aviation sector? Will there be a sector coordinator? 
Has there been interest from the aviation community in establishing an 
ISAC?

    8. You testified that the Transportation Security Operations Center 
is the point of contact for local transit authorities with security 
issues, but that the Federal Transit Administration also plays a role. 
Please clarify the responsibilities of the TSOC and the FTA, and 
indicate any operations that are conducted solely at the TSOC.

    9. TSA officials have testified that many airports--far beyond the 
current set of eight--have a legitimate need for letters of intent 
(LOIs) to better deploy EDS machines. The President's fiscal year 2005 
budget request include no funds to sign new LOIs. What is TSA's long 
term budget plan for LOIs?

    10. The GAO report on CAPPS II in February, 2004, said that only 
one of the eight criteria that TSA and DHS need to meet before 
implementing the system had been met. Since then, has GAO told 
determined that any of the remaining seven criteria have been met? When 
does TSA expect to be ready to deploy CAPPS II?

    11. I understand that TSA's pilot program on the registered 
traveler program may include using dedicating checkpoint screener lanes 
for registered travelers. Screening resources, in terms of TSA 
personnel, equipment, and physical airport space, are already stretched 
thin and can't be increased in the short term. Won't this proposal to 
dedicate screeners and detection equipment to a small percentage of the 
passengers mean that the overwhelming majority of travelers will face 
even longer lines, and that it will be even more difficult than it is 
now to fully screen all passengers and baggage? Can you explain how 
this system will run without compounding the screening problems we 
already have?

    12. The Committee has heard from armed federal law enforcement 
officers traveling on commercial flights that their status is revealed 
at several points in the airport, including in conversations with 
airline personnel at check-in, in noticeable bypassing of checkpoint 
screening, and in pre-boarding. What steps, if any, are being used to 
help law enforcement officers avoid being revealed as such? Are any 
additional authorities needed to help in this regard, either for the 
security of the federal law enforcement personnel or for aviation 
security? Regarding TSA's pilot program for federal law enforcement 
officers traveling with firearms to use the National Law Enforcement 
Telecommunications System (NLETS) to pre-notify airport personnel: What 
airports are involved in this study? What are the results of the pilot 
program in terms of security at the participating airports and the 
advisability of using NLETS for this purpose?

    13. When will TSA complete any steps necessary to determine the 
appropriate size of the screening workforce, especially in light of 
increasing air travel?

    14. Does TSA have a risk-based plan for securing rail and mass 
transit? If so, please provide the Committee with a copy. If not, when 
will such a plan be in place?

    15. The American Public Transportation Association has estimated 
that public transportation authorities throughout the country would 
need to spend $6 billion to be reasonably secure. Does TSA agree with 
that figure? If not, what is TSA's estimate of the cost for adequate 
transit security? What is TSA's responsibility for helping transit 
authorities reach that security level?

    16. What is TSA's timeline for completing the requirements in 
Homeland Security Presidential Directive-7 to create an intermodal 
transportation security strategy? What are the timelines for finishing 
all the sector specific plans?

    17. In light of the TSA publication ``Security Guidelines for 
General Aviation Airports'' released this month:
        <bullet> Will TSA monitor, on an ongoing basis, the progress 
        made by general aviation airports in reaching the recommended 
        levels of security?
        <bullet> What TSA or FAA funds are available for general 
        aviation airports to make security improvements? Has TSA 
        coordinated with FAA to provide financial assistance to help 
        airports implement the guidelines?

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
